APPENDIX

1a

APPENDIX A
In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 18-2631
GREGORY WILLIAMS,
Petitioner-Appellant,
v.
LEONTA JACKSON,
Respondent-Appellee.
____________________
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:14-cv-7407 — John Z. Lee, Judge.
____________________
ARGUED APRIL 8, 2020 — DECIDED JULY 6, 2020
____________________
Before RIPPLE, BRENNAN, and SCUDDER,
Circuit Judges.
SCUDDER, Circuit Judge. Gregory Williams appeals
the denial of his application for federal habeas corpus
relief following convictions in Illinois state court in two
separate cases for raping two women—offenses that
resulted in sentences totaling 66 years’ imprisonment.
Williams contends that his defense attorney violated

2a
his Sixth Amendment right to the effective assistance
of counsel by not only advising him to reject a 41-year
plea offer, but also failing to inform him of his
maximum sentencing exposure if he proceeded to trial
in both cases and lost. An Illinois court rejected these
claims, concluding that Williams failed to provide any
information pertinent to one of the two cases that gave
rise to the 41-year plea offer. Without knowing
anything about that case, the Illinois court reasoned,
there was no way to assess defense counsel’s
performance and thus no way to conclude that
Williams received ineffective assistance. Finding the
Illinois court’s conclusion reasonable, the district court
denied federal habeas relief. We affirm.
I
A
Around 7:00 a.m. on January 9, 2006, a woman
named J.H. was walking near the intersection of
Adams Street and Lavergne Avenue in Chicago when
a stranger, Gregory Williams, approached her,
grabbed her arm, told her he had a gun, and instructed
her to accompany him to his apartment.
J.H.
complied. While walking with Williams, J.H. passed
both her brother and mother, but signaled no distress
and otherwise gave them no indication that she was
being held against her will.
Upon arriving at the apartment, Williams put a
knife to J.H.’s neck and told her to undress. He then
raped her three times while smoking crack cocaine.
Williams apologized, allowed J.H. to dress, and
brought his baby in from the next room for J.H. to hold.
He gave her a phone and told her she could call the

3a
police, but J.H. declined, later testifying that she
thought Williams was just testing her.
Later that day J.H. reported the assault to police,
who took her to a hospital. Following Williams’s
arrest, J.H. identified him in a line-up. For his part,
Williams agreed to a police interview and admitted
that he had approached J.H., asked her to come to his
apartment, and forced her to have sex with him
against her will.
An Illinois grand jury indicted Williams on 37
counts of sexual assault and kidnapping. At the time,
Williams also faced charges in a second criminal case
involving similar conduct but a different victim, S.D.
The same trial judge initially presided over both cases.
At a pretrial conference, Williams’s counsel
expressed interest in requesting a conference under
Illinois Supreme Court Rule 402(d). At a so-called 402
conference, the parties advise the court of the facts and
their views of the case, after which the court makes a
recommendation as to the appropriate sentence the
defendant should serve. See Ill. Sup. Ct. R. 402. The
defense and the prosecution are free to accept that
sentence by agreeing to a guilty plea or to reject it and
proceed to trial. See id.
Williams’s counsel focused her efforts on mounting
an argument that he was “guilty but mentally ill”
(often shorthanded as GBMI) under Illinois law. She
requested a clinical exam to assess Williams’s mental
fitness, but both experts she consulted opined that he
was legally sane at the time of his offense against J.H.
Counsel’s comments in open court in the weeks
leading to the 402 conference suggested that she did
not fully understand the nature of GBMI. For

4a
example, at a February 2008 conference, counsel
stated that she planned to present a “defense” of
GBMI. As Judge Joseph Claps explained, however,
GBMI is not a defense under Illinois law and does not
affect a defendant’s culpability or the length of his
sentence. Rather, a determination that a defendant is
guilty but mentally ill affects only whether he receives
mental health treatment in custody. See 730 ILCS
5/5-2-6(a) (stating that where a defendant has been
found GBMI, “[t]he court may impose any sentence
upon the defendant which could be imposed pursuant
to law upon a defendant who had been convicted of the
same offense without a finding of mental illness”).
The trial court held the 402 conference on March 11,
2008. Just before the conference began, Williams’s
counsel repeated her intention to argue that he was
GBMI. Judge Claps again asked her what difference
that would make to Williams’s sentence because
GBMI “really is only a direction to the Department of
Corrections to get [Williams] mental health treatment.
It doesn’t change anything.”
In keeping with established practice, Judge Claps
held the 402 conference off the record and then went
back on the record to recommend a sentence of 20
years’ imprisonment “in the first case” and 21 years in
the second, for a total of 41 years. (It is unclear
whether “the first case” referred to J.H.’s case or S.D.’s
case.) After consulting with Williams, his defense
attorney informed the court that he rejected the plea
offer and requested a bench trial in the J.H. case, at
which she planned to present what she called the
“affirmative” or “pseudo-affirmative defense” of GBMI.

5a
At the ensuing bench trial, defense counsel did little
to contest the sexual assault charges against Williams.
Indeed, the parties stipulated not only to the
admission of J.H.’s lineup identification, but also to
forensic evidence showing that the semen recovered
from J.H. matched Williams’s DNA.
The state
presented several witnesses, including J.H., her
mother, one of the detectives who interviewed
Williams following his arrest, as well as expert witness
Dr. Roni Seltzberg of the Circuit Court’s Forensic
Clinical Services, who had examined Williams twice
and opined that he was legally sane at the time he
raped J.H. Meanwhile the defense called only one
witness, Dr. Carl Wahlstrom, who testified that
Williams had a long history of mental illness,
schizophrenia, and a low IQ, but agreed that he was
legally sane at all relevant times. Williams’s counsel
also argued that the state had not met its burden on
the kidnapping charge, emphasizing that J.H. made
little effort to get away and did not cry out to her
mother or brother when she passed them on the street.
The trial court found Williams guilty of six counts of
aggravated sexual assault, one count of aggravated
kidnapping, and one count of kidnapping. It sentenced
Williams
to
consecutive
22-year
terms
of
imprisonment for each of the three rape charges and
concurrent 22-year terms for the remaining counts, for
a total of 66 years in prison. The court further found
that Williams was not GBMI.
Still pending was Williams’s other case—the one
involving S.D.—which originated with Judge Claps
but was transferred to a new judge after Williams was
convicted in J.H.’s case. Williams ultimately pleaded
guilty in S.D.’s case and was sentenced to three

6a
consecutive 10-year terms of imprisonment (30 years
total), to be served concurrently with his 66-year
sentence in J.H.’s case.
The Illinois Appellate Court affirmed Williams’s
conviction and sentence in J.H.’s case, and the Illinois
Supreme Court denied his petition for leave to appeal.
B
Williams next sought postconviction relief in state
court. His pro se petition argued that his counsel
provided constitutionally ineffective assistance in
advising him to reject the 41-year sentence Judge
Claps recommended after the 402 hearing. The
postconviction trial court applied the familiar test for
ineffective assistance from Strickland v. Washington,
466 U.S. 668 (1984). To prevail, Williams had to make
the twofold showing that his counsel’s performance
was deficient, or “fell below an objective standard of
reasonableness,” id. at 687–88, and that the errors
prejudiced him because there was “a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different,” id. at 694.
Williams alleged that his trial counsel’s
performance fell short in two ways. First he contended
that she failed to inform him of the consequences of
rejecting the 41-year sentence and proceeding to trial
in the J.H. and S.D. cases. Williams claimed that his
attorney “wouldn’t answer [his] questions, or take
reasonable steps to ensure [he] possessed a basic
knowledge or understanding of the numerous crimes,
counts and actions” against him, and that after the 402
hearing, she “never advised [him] as to the possible
consequences of rejecting the plea offer.”

7a
Trial counsel’s failings were significant, Williams
insisted, because of the consecutive nature of the
sentences he faced under Illinois law. He was charged
in the J.H. case with three counts of criminal sexual
assault and multiple counts of kidnapping, each of
which carried 6 to 30 years’ imprisonment. Illinois law
imposes mandatory consecutive sentences for criminal
sexual assault and permits consecutive sentences in
other circumstances. See 730 ILCS 5/5-8-4(d)(2); 730
ILCS 5/5-8-4(a)–(c), (e). Stacking his sentences for
sexual assault and kidnapping, Williams argued that
he faced at least 24 to 120 years’ imprisonment in
J.H.’s case—more than the 20 or 21 years
recommended at the 402 conference—and that his
trial counsel failed to inform him of this sentencing
exposure.
Williams alleged that his counsel performed
deficiently in another way, too. Separate and apart
from her alleged failure to inform him of the sentences
he faced if convicted of kidnapping and raping J.H.,
Williams claimed that her recommendation to reject
the 41-year plea offer was ill-advised. According to
Williams, his counsel told him that under a plea
agreement he would have to serve 85% of “the largest
term” (21 years) and that this was “too much time”
because “the State had no evidence.” Williams argued
that this advice was unreasonable given the strength
of the state’s evidence against him in J.H.’s case,
including his admission to the rapes, J.H.’s
identification of him as the offender, and the DNA
evidence linking him to the crimes.
Williams insisted that his counsel’s errors
prejudiced him because he otherwise would have
accepted the 41-year plea recommended by Judge

8a
Claps at the 402 conference. As Williams put it, “it is
a far cry to contend that had [he] been fully cognizant
and appreciative of the potential detriment following
a finding of guilt, he would have knowingly rejected
the Court’s merciful offer.”
Noticeably absent from Williams’s petition for
postconviction relief, however, was any meaningful
information about the case involving S.D. He did not
recount the advice he received in that case, let alone
explain why he pleaded guilty in the S.D. case while
proceeding to trial in the J.H. case. The postconviction
record lacked even basic information about S.D.’s
case—not the strength of the state’s evidence, nothing
about any defenses Williams may have had, not even
the particular facts of the offense.
The Illinois court denied Williams’s petition as
“frivolous and patently without merit.” It found his
claim that his trial counsel had unreasonably advised
him to reject a favorable plea offer too “generalized,”
and her view that the plea offer was “too much time”
not “unreasonable or misleading.” The court added
that Williams had not shown enough objective
evidence of prejudice—“that he would have accepted
the plea had counsel acted differently.” The court did
not address Williams’s other claim of deficient
performance—that his counsel failed to even inform
him of the consequences of rejecting the plea offer and
proceeding to trial.
The Illinois Appellate Court affirmed the denial of
postconviction relief.
Like the trial court, the
appellate court did not directly address Williams’s
claim that defense counsel had failed to inform him of
the sentence he faced at trial, instead focusing on his

9a
claim that she told him the plea offer was “too much
time.” The court held that this advice did not
constitute deficient performance. For one thing, the
court said, Williams’s counsel could have reasonably
thought that he might be acquitted of the aggravated
kidnapping charge—which could have brought his
minimum sentence down to 18 years, less than the 20
or 21 years recommended at the 402 conference.
Counsel had cross-examined J.H. to this effect at trial
in an effort to establish that she never attempted to
escape Williams’s grasp.
Even more central to the state court’s affirmance
was that the 41-year plea offer pertained to two
separate cases—J.H.’s case and S.D.’s case. Yet recall
that Williams’s postconviction petition related only to
J.H. and said nothing of S.D. The state court
highlighted this gap in the record, stressing that
Williams “ha[d] not described the offense [in S.D.’s
case] in any detail, much less shown that counsel’s
advice to reject the offer was unsound as to the second
offense.” This omission doomed Williams’s claim of
deficient performance, the court explained, because it
was “entirely possible that counsel advised [him] to
reject the plea offer, because he stood a chance of
acquittal or a lesser sentence in the second case.”
Having rejected Williams’s claim for failure to show
deficient performance, the Illinois Appellate Court
declined to consider prejudice, though it expressed
skepticism that he had established that prong either.
The appellate court therefore denied postconviction
relief, and the Illinois Supreme Court denied leave to
appeal.

10a
C
His state remedies exhausted, Williams invoked 28
U.S.C. § 2254 and sought habeas relief in federal
court. To obtain relief, Williams had to establish that
the Illinois Appellate Court’s decision denying
postconviction relief reflected an unreasonable
application of federal law or was based on an
unreasonable factual determination.
See id.
§ 2254(d)(1)–(2).
Unable to find that the state court’s decision was
unreasonable, the district court denied relief. It began
by focusing on trial counsel’s advice to Williams to
reject the 41-year plea offer, which the Illinois
Appellate Court held did not constitute deficient
performance. The district court found the state court’s
conclusion reasonable. It underscored the dearth of
information in the record about S.D.’s case and
reasoned that rejecting the plea might have seemed
like “the better net decision for both cases.”
The district court then turned to Williams’s
allegation that his defense attorney failed to inform
him of the sentences he faced at trial. While observing
that the state court “did not directly address this
aspect of Williams’s claim,” the district court
nevertheless continued to give the state court
deference under § 2254(d), applying the principle that
it may “presume[] that the state court adjudicated the
claim on the merits in the absence of any indication or
state-law procedural principles to the contrary.”
Harrington v. Richter, 562 U.S. 86, 99 (2011). Through
this lens the district court again concluded that the
state court’s decision rejecting Williams’s claim was
reasonable. It explained that the allegations Williams

11a
advanced in his postconviction petition were
“sufficiently vague and contradictory” that “a
fairminded jurist could find the evidence insufficient”
to support his claim.
As the district court recognized, the state court held
only that Williams failed to show deficient
performance without addressing the prejudice prong
of his ineffective assistance claim. The district court
nevertheless proceeded to evaluate prejudice de novo
and concluded that Williams could not satisfy that
prong either—an additional basis for denying him
habeas relief. The district court again highlighted the
“gaping hole in the record” about S.D.’s case, a gap
that impeded its ability to assess the 41-year package
deal offered to Williams for both rape cases—the J.H.
and S.D. cases. For all it knew, the court said, “the
evidence was scant on the other case and acquittal was
likely, making the overall plea” less attractive.
The district court likewise rejected Williams’s
request for an evidentiary hearing. Williams had
argued that such a hearing was necessary to develop
the facts of his ineffective assistance claim—to
determine why his trial counsel advised him to reject
the plea offer and what information she had or had not
given him about the sentence he faced at trial. In
evaluating this request, the district court applied 28
U.S.C. § 2254(e)(2), which allows a hearing for a
petitioner who failed to develop the factual basis of his
claim in state court, but only if he presents new
evidence of his innocence. Because Williams never
alleged that a hearing would establish his innocence,
the court held that he was ineligible for an evidentiary
hearing.

12a
Williams now appeals.
II
A
Like the district court, we begin with the decision of
the Illinois Court of Appeals, the last state court to
consider Williams’s ineffective assistance claim on the
merits in a reasoned opinion. See Wilson v. Sellers,
138 S. Ct. 1188, 1192 (2018). Congress has authorized
us to grant habeas relief only if that decision “was
contrary to, or involved an unreasonable application
of, clearly established Federal law” or “was based on
an unreasonable determination of the facts.” 28
U.S.C. § 2254(d)(1)–(2).
“If this standard is difficult to meet, that is because
it was meant to be.” Harrington, 562 U.S. at 102.
Section 2254(d) requires Williams to show that the
state court’s ruling “was so lacking in justification that
there was an error well understood and comprehended
in existing law beyond any possibility for fairminded
disagreement.” Id. at 103. We afford the state court
great deference because habeas corpus serves as a
“‘guard against extreme malfunctions in the state
criminal justice systems,’ not a substitute for ordinary
error correction through appeal.” Id. at 102–03
(quoting Jackson v. Virginia, 443 U.S. 307, 332 n.5
(1979) (Stevens, J., concurring in judgment)).
A defendant has a Sixth Amendment right to
effective assistance of counsel in considering whether
to accept a plea offer. See Lafler v. Cooper, 566 U.S.
156, 168 (2012). As the state court and the district
court recognized, to establish the denial of this right,
a petitioner like Williams must show that his counsel’s
performance fell below a reasonable standard and that

13a
counsel’s errors prejudiced him. See Strickland, 466
U.S. at 687–88, 694. An attorney’s advice to reject a
plea “is deficient if the attorney grossly
mischaracterizes the evidence or advises a client to
reject a plea offer and go to trial in the face of
overwhelming evidence and no viable defenses.”
Torres-Chavez v. United States, 828 F.3d 582, 585 (7th
Cir. 2016). And to show prejudice from this type of
error, a defendant “must demonstrate a reasonable
probability [he] would have accepted the earlier plea
offer” if his counsel had not performed deficiently.
Missouri v. Frye, 566 U.S. 134, 147 (2012).
It is especially difficult to prevail on an ineffective
assistance of counsel claim in federal habeas because
Strickland and § 2254(d) together create “doubly
deferential judicial review.” Knowles v. Mirzayance,
556 U.S. 111, 123 (2009).
B
Recall the crux of the Illinois Appellate Court’s
decision: it denied Williams postconviction relief
because the factual void in S.D.’s case meant that he
could not show deficient performance. The Illinois
court stopped there and explicitly refrained from
considering the prejudice prong. The district court
found the state court’s decision reasonable but also
proceeded further and, in the alternative, considered
the prejudice prong of the ineffective assistance claim
de novo. It concluded that Williams had not met his
burden on that front either.
No matter which part of the inquiry we consider—
deficient performance or prejudice—we come to the
same conclusion: the state court’s decision did not
reflect an unreasonable application of the controlling

14a
legal standards announced by the Supreme Court in
Strickland and Frye.
Foremost, we know much too little about the case
involving S.D. and the advice Williams received from
his counsel in that case. The record is all but silent on
that front. For his part, Williams points to the little
information we do have. We know that Judge Claps
heard about both cases at the 402 conference and
recommended a similar sentence in each—20 years’
imprisonment in one case and 21 years in the other.
And we know that Williams ultimately pleaded guilty
in S.D.’s case to two counts of aggravated sexual
assault and one count of aggravated kidnapping—
charges similar to the ones he faced in J.H.’s case.
This information is too paltry, though, to say with
any certainty that Williams’s trial counsel performed
deficiently in J.H.’s case. Williams gave no indication
of the respective strength of the parties’ cases—
whether the prosecution had forensic evidence or
victim testimony, for example, and whether he could
have countered with a viable defense or a credible
alibi. We do not even know the particulars of
Williams’s offense conduct in S.D.’s case, let alone the
answers to these questions. Absent such information,
we have no meaningful way of evaluating counsel’s
advice to Williams to reject the 41-year sentence for
both cases. Half of the equation remains empty. As
the district court observed, Williams may have stood a
chance of acquittal or a lighter sentence in S.D.’s case,
making the combined 41-year plea offer a bad bargain.
We have no way of knowing for sure.
Williams begs to differ. He contends that the
information we do have about S.D.’s case—the

15a
similarity of the charges and recommended sentence—
lends itself to an inference that conviction was likely
in both the J.H. and S.D. cases. Williams also
highlights the part of his petition where he alleged
that his counsel “never advised [him] as to the possible
consequences of rejecting the plea offer.” That plea
offer related to both cases, Williams’s argument goes,
so we should interpret his petition to allege that he
received inadequate advice as to both.
We need not reach a conclusion on whether
Williams met his burden of showing deficient
performance. Section 2254(d) requires us to ask
merely whether the state court’s answer to that
question reflected an unreasonable application of
federal law or was based on an unreasonable
determination of the facts. On this record, the Illinois
Appellate Court sensibly concluded that it had too
little information to judge the advice Williams
received in connection with the 41-year plea offer. The
inferences that Williams asks us to draw from his
petition may be fair, but so are those made by the
Illinois Appellate Court. We therefore cannot say that
the state court unreasonably applied the controlling
legal standard when it rejected Williams’s ineffective
assistance claim for failure to show deficient
performance.
The state court stopped at deficient performance.
The district court went further, however, and provided
an alternative basis for denying Williams’s claim for
habeas relief: Williams had not shown prejudice.
Because the state court did not decide the prejudice
question, the district court evaluated it de novo, as do
we. See Quintana v. Chandler, 723 F.3d 849, 853 (7th
Cir. 2013) (“[W]hen a state court makes the basis for

16a
its decision clear, [§] 2254(d) deference applies only to
those issues the state court explicitly addressed.”)
(citing Wiggins v. Smith, 539 U.S. 510, 534 (2003)).
To show prejudice Williams had to establish a
reasonable probability that but for his attorney’s
errors, he would have accepted the 41-year plea offer
at the 402 conference. See Frye, 566 U.S. at 147.
Williams’s failure to supply information about S.D.’s
case impedes this inquiry as well. Without even a
superficial familiarity with that case, we cannot know
with confidence that Williams would have accepted a
combined 41-year plea.
For this reason, too,
Williams’s ineffective assistance claim fails when we
consider his allegation that his counsel failed to inform
him of the sentencing exposure he faced if convicted in
both the J.H. and S.D. cases. Even if we assumed
deficient performance, we lack the information
necessary to measure the probability that he would
have accepted the plea under other circumstances.
See id. at 150 (observing that “in some cases
defendants must show more than just a guilty plea to
a charge or sentence harsher than the original offer”
to establish prejudice).
III
A final issue remains. Williams requested an
evidentiary hearing on his ineffective assistance
claim. We agree with the district court’s decision to
deny that request but reach that conclusion by
traveling a different path.
The operative standard for whether a habeas
petitioner is entitled to an evidentiary hearing comes
from 28 U.S.C. § 2254(e)(2), which provides that if a
habeas petitioner “has failed to develop the factual

17a
basis of a claim in State court proceedings, the court
shall not hold an evidentiary hearing on the claim
unless the applicant shows that . . . the facts
underlying the claim would be sufficient to establish
by clear and convincing evidence that but for
constitutional error, no reasonable factfinder would
have found the applicant guilty of the underlying
offense.”
The district court made quick work of Williams’s
request, explaining that because he made no claim of
innocence, he was ineligible for an evidentiary
hearing. But focusing on the innocence requirement
skims over an issue more fundamental and salient to
Williams’s case. That requirement applies only if the
petitioner “has failed to develop the factual basis of a
claim in State court proceedings.” Id. Section
2254(e)(2) does not prohibit a hearing where the
petitioner’s failure to develop the factual basis for his
claim was beyond his control.
Put differently,
§ 2254(e)(2) does not bar an evidentiary hearing
“unless there is lack of diligence, or some greater fault,
attributable to the prisoner or the prisoner’s counsel.”
Williams v. Taylor, 529 U.S. 420, 432 (2000).
Diligence requires that a prisoner “made a reasonable
attempt, in light of the information available at the
time, to investigate and pursue claims in state court,”
even if those efforts are unsuccessful, id. at 435, and
“at a minimum, [sought] an evidentiary hearing in
state court,” id. at 437.
Whether Williams exercised diligence in developing
the factual basis for his claim is a close and difficult
question, in no small part because he did seek an
evidentiary hearing in state court. In his state
postconviction petition, Williams requested a hearing,

18a
described the basis for his claim, and included an
affidavit swearing to the truth of his allegations. The
state appellate court recognized that the only evidence
he could present of private discussions with his
attorney would be his own testimony and his counsel’s,
and that at the pleading stage, he could be excused for
failing to present an affidavit by his counsel. If J.H.’s
case were the only one at issue, Williams’s efforts may
have been enough to show diligence. See Avila v.
Richardson, 751 F.3d 534, 537 (7th Cir. 2014) (finding
diligence because the petitioner “consistently
presented his claim at each stage of post-conviction
proceedings”); Davis v. Lambert, 388 F.3d 1052, 1061
(7th Cir. 2004) (finding diligence where a petitioner’s
pro se petition requested an evidentiary hearing,
described the hypothetical content of testimony he
wanted his counsel to present at trial, and verified his
allegations with a sworn affidavit).
In the end, however, we conclude that Williams
failed to show the diligence necessary to obtain an
evidentiary hearing for the same reason his claim fails
on the merits. Williams had to do more than allege
that his trial counsel provided ineffective assistance
regarding the 41-year plea offer for two cases. He had
to color in that claim with information relevant to both
the J.H. and S.D. cases. While we recognize the
limitations a prisoner may face in filing a
postconviction petition pro se, that does not explain
the wholesale absence of information about S.D.’s
case. As the defendant, Williams presumably knew
something about the state’s charges and evidence
against him, his potential defenses, or at least the
advice he received in connection with his plea. He
could have conveyed this information in general

19a
terms, or at the very least, explained why it was
omitted. Instead the Illinois Appellate Court was left
with a factual void about S.D.’s case. It chose to affirm
the denial of his habeas claim, and reasonably so.
Looking at the same record, we cannot say that
Williams satisfied the standards for receiving an
evidentiary hearing in federal court. To be sure, a
hearing may have helped Williams flesh out the
allegations he did make—those specific to J.H.’s case.
There is little doubt that he raised a serious question
about the adequacy and quality of the advice he
received in that case. But our inquiry is not whether
a hearing would have helped Williams present
evidence surrounding J.H.’s case alone. By its terms,
§ 2254(e)(2) focuses our inquiry on whether he was
diligent in developing the factual basis for the entirety
of his ineffective assistance claim. Doing so required
him to provide facts about S.D.’s case as well. Properly
framed, the question whether Williams is entitled to
an evidentiary hearing depends on whether he
exercised diligence, which he did not do. We therefore
agree with the district court that Williams is entitled
neither to habeas relief nor to an evidentiary hearing.
For these reasons, we AFFIRM.

20a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
GREGORY WILLIAMS
(K52712),
Petitioner,
v.
TARRY WILLIAMS,
Warden, Stateville
Correctional Center,

)
) 14 C 7407
)
) Judge John Z. Lee
)
)
)
)

Respondent.
MEMORANDUM OPINION AND ORDER
Gregory Williams, an Illinois prisoner, brings this
pro se habeas corpus petition [1] pursuant to 28 U.S.C.
§ 2254, challenging his 2009 conviction in the Circuit
Court of Cook County for aggravated criminal sexual
assault and aggravated kidnapping. Williams asserts
that his trial counsel provided ineffective assistance at
the plea bargain stage by failing to inform him of the
potential for mandatory consecutive sentences at trial
and misleading him to reject a favorable plea offer.
For the following reasons, the petition is denied.

21a
Factual and Procedural Background
I.

Factual History1

In 2006, Williams was indicted on a number of
sexual assault and kidnapping charges in two
separate cases in the Circuit Court of Cook County, 06CR-2625 (“Case 2625”) and 06-CR-2627 (“Case 2627”).
Resp’t’s Answer, Ex. B, Docket Sheet (“2625 Docket”),
People v. Williams, No. 06-CR-2625 (Cook Cty. Cir.
Ct.), ECF No. 23-2, at 1; People v. Williams, No. 1-111913, 2013 WL 6844751 ¶¶ 8, 11 (Ill. App. Ct. Dec. 26,
2013). The plea bargain at issue in this case involved
both Cases 2625 and 2627, see Williams, 2013 WL
6844751 ¶ 11, though Williams only challenges the
convictions stemming from Case 2627. See id. ¶ 2;
Resp’t’s Answer, Ex. A, Trial Common Law Record
(“2627 Trial Record”), People v. Williams, No. 06-CR2627 , ECF No. 23-1, at C13–49.
In that case, the victim (whom the Court refers to as
JH) testified at trial that Williams approached her on
the street the morning of January 9, 2006. Williams,
2013 WL 6844751 ¶ 14. She had never seen Williams
before. Id. According to JH, Williams told her that he
had a gun and instructed her to walk with him to his
baby’s mother’s home. Id. While walking with
Williams, JH saw her mother and brother at a bus
stop, and Williams instructed her to tell them she was
walking him home, which she did. Id. After JH and
1

The following facts are drawn from the state court record.
Factual findings by the last state court to rule on the merits of
the petitioner’s claim are presumed to be correct, unless the
petitioner presents clear and convincing evidence to rebut the
presumption. Morgan v. Hardy, 662 F.3d 790, 797 (7th Cir. 2011)
(citing 28 U.S.C. § 2254(e)(1)).

22a
Williams arrived at the apartment, Williams
threatened JH with a knife and forced her to perform
oral sex and submit to him performing oral sex on her.
He then forced sexual intercourse on her. Id. ¶¶ 16–
17.
After assaulting JH, Williams apologized to her and
told her to dress. Id. ¶ 18. Williams eventually
allowed JH to leave the apartment, and she flagged
down a police officer and reported the crime. Id. The
police took her to hospital and afterwards to the police
station, where she identified Williams in a line-up that
same day. Id.
Police Detective Elizabeth Miller testified at trial
that Williams confessed to the crime that evening. See
id. ¶¶ 21, 22–25. Other than claiming that JH had
first approached him and voluntarily accompanied
him to his apartment, Williams’s confession was
materially similar to JH’s account of events, including
the description of the sexual assaults. See id. ¶¶ 22–
25.
A grand jury indicted Williams on multiple charges,
including multiple counts of aggravated criminal
sexual assault and aggravated kidnapping. Id. ¶ 8.
Williams’s counsel sought a court-ordered mental
health evaluation for “fitness and sanity” in February
2006. Id. Dr. Roni Seltzberg, a staff forensic
psychiatrist at Forensic Clinical Services, determined
that Williams was fit to stand trial with the aid of
medication and was legally sane at the time of the
offenses. Id. Williams’s counsel eventually retained a
psychiatrist to evaluate Williams. See id. ¶ 10. That
psychiatrist, Dr. Carl Wahlstrom, testified at trial that
Williams had had an abusive childhood, exhibited

23a
borderline intellectual functioning, and suffered from
a “longstanding history of mental illness beginning in
childhood,” including schizophrenia. See id. ¶¶ 27–
29.
Williams also faced similar charges in a case
involving a different victim in Case 2625.2 By July
2006, both cases were before Judge Joseph Claps. See
2627 Trial Record, at C2–C9; see generally 2625
Docket.
In March 2008, Williams’s counsel Case 26273
requested an Illinois Supreme Court Rule 402 plea
conference. See Ill. Sup. Ct. R. 402(d) (allowing trial
judges to “participate in plea discussions” “upon
request by the defendant and with the agreement of
the prosecutor”). Prior to the conference, Williams’s
counsel informed the judge that she intended to
pursue a finding of “guilty but mentally ill.” Resp’t’s
Answer, Ex. C, Trial Report of Proceedings (“2627
Trial Report”), at EE3–7, People v. Williams, No. 06CR-2627 (Cook Cty. Cir. Ct.), ECF No. 23-3. After the
conference, which was conducted off the record, the
judge told the parties that if Williams pleaded guilty
he would be sentenced to twenty-one years in Case
2627, to be served consecutively to a twenty-year
2

The state appellate court had limited information on this case
beyond the docket sheet. See Williams, 2013 IL App ¶ 11
(“Although the record contains very limited information
regarding the second, unrelated case, the appellate briefs filed
herein indicate that case involved a different victim but similar
facts.”). But it is apparent that Williams was charged with 28
felony counts, including charges of aggravated criminal sexual
assault and aggravated kidnapping. See 2625 Docket at 1.
3

The record does not indicate whether he was represented by
the same public defender in both cases.

24a
sentence for Case 2625. Williams, 2013 WL 6844751
¶ 11. Williams declined the plea offer and proceeded
to a bench trial. Id. ¶ 2.
At the conclusion of the trial, the judge found
Williams guilty of multiple counts of aggravated
criminal sexual assault and aggravated kidnapping.
Id. ¶ 32. The judge declined to find Williams guilty
but mentally ill, explaining that he was convinced by
Dr. Seltzberg’s conclusions that Williams was
“malingering” and was not mentally ill. 2627 Trial
Report at RR-36. The court imposed sentences of
twenty-two years on each count, ordering the
sentences on three of the aggravated criminal sexual
assault counts to run consecutively, and the sentences
for the remaining counts to run concurrently—for an
aggregate sentence of 66 years. Williams, 2013 WL
6844751 ¶ 35. On direct appeal, the state appellate
court entered an order affirming the conviction and
sentence, and correcting the mittimus to add one
additional day of presentencing custody credit. Id.
¶ 36.
Williams later pleaded guilty to the second case, and
his sentence in that case was ordered to run
concurrently to the sentence in the instant case. See
2625 Docket at 15–17.
II. Procedural History
Williams filed a pro se postconviction petition under
Illinois’s Post Conviction Hearing Act, 725 Ill. Comp.
Stat. 5/122–1, et seq. Pet’r’s Pet., Ex. 5/20/2011 PostConviction Opinion, ECF No. 1; see also Williams,
2013 WL 6844751 ¶ 37.
He raised multiple
constitutional claims, including several claims of
ineffective assistance of trial counsel. Williams, 2013

25a
WL 6844751 ¶ 37. The circuit court dismissed the
petition as frivolous and without merit. Id. ¶ 38.
On appeal, Williams advanced only one claim from
his earlier petition: that his trial counsel was
ineffective during the plea bargaining stage. See
Resp’t’s Answer, Ex. J, Pet’r’s Post-Conviction App.
Br. (“PC App. Pet’r’s Br.”), People v. Williams, No. 111-1913, ECF No. 23-10, at 14–15. Specifically,
Williams claimed that his counsel was ineffective
when she (1) advised him to reject the 41-year plea
offer by saying that 41 years was “too much time” and
“it would be best to just go to trial,” and; (2) failed to
inform him of the possible consequences of rejecting
the court’s offer, including the consequence of
mandatory consecutive sentences. Id. at 14.
The state appellate court rejected Williams’s
ineffective assistance claim on the merits, Williams,
2013 WL 6844751 ¶ 74, finding that Williams’s
counsel did not render deficient performance when she
advised him to reject the plea because it was “too much
time.” Id. ¶ 73. Of note, however, the state appellate
court did not analyze the other component of
Williams’s ineffective assistance claim—that his
counsel had been deficient by failing to inform him of
mandatory consecutive sentences. The court declined
to analyze whether Williams had shown that he had
suffered prejudice from his counsel’s performance, as
it had found the performance was not deficient. Id.
¶ 75.
Williams filed a petition for leave to appeal in the
Illinois Supreme Court, pressing the same ineffective
assistance claim that he had advanced before the state
appellate court. Resp’t’s Answer, Ex. M, Petition for

26a
Leave to Appeal (“PLA”), People v. Williams, No.
117190, ECF No. 23-13. The Illinois Supreme Court
denied the petition. People v. Williams, 5 N.E.3d 1128
(Ill. 2014).
Finally, Williams filed this habeas petition under 28
U.S.C. § 2254. In his petition, Williams contends that
the state appellate court unreasonably applied the
standards for ineffective assistance of counsel in
finding that trial counsel’s performance was not
deficient both for advising him to reject the 41-year
plea offer and for failing to advise him of mandatory
consecutive sentences. Pet’r’s Pet. at 5, 5A, ECF No. 1.
Legal Standard
A writ of habeas corpus will be granted only if a
petitioner demonstrates that “he is in custody in
violation of the Constitution or laws or treaties of the
United States.” 28 U.S.C. § 2254(a). Under the
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA), the Court may not grant habeas relief
unless the state court’s decision on the merits was
contrary to, or involved an unreasonable application
of, clearly established federal law, as determined by
the Supreme Court of the United States, or the state
court decision is based on an unreasonable
determination of facts. 28 U.S.C. § 2254(d).
“A federal habeas court may issue the writ under
the ‘contrary to’ clause if the state court applies a rule
different from the governing law set forth in [the
Supreme Court’s] cases, or if it decides a case
differently than [the Supreme Court has] done on a set
of materially indistinguishable facts.” Bell v. Cone,
535 U.S. 685, 694 (2002).
“An ‘unreasonable
application’ occurs when a state court ‘identifies the

27a
correct legal principle from [the Supreme Court’s]
decisions but unreasonably applies that principle to
the facts of petitioner’s case.’” Rompilla v. Beard, 545
U.S. 374, 380 (2005) (quoting Wiggins v. Smith, 539
U.S. 510, 520 (2003)).
Clearly established federal law is the “holdings, as
opposed to the dicta, of [the Supreme Court’s]
decisions as of the time of the relevant state-court
decision.” Williams v. Taylor, 529 U.S. 362, 412
(2000). The state court is not required to cite to, or
even be aware of, the controlling Supreme Court
standard, as long as the state court’s reasoning and
result do not contradict the Supreme Court standard.
Early v. Packer, 537 U.S. 3, 8 (2002).
The Court begins with a presumption that state
courts both know and follow the law. Woodford v.
Visciotti, 537 U.S. 19, 24 (2002). This presumption is
especially strong when the state court is considering
well-established legal principles that have been
routinely applied in criminal cases for many years.
Burt v. Titlow, 134 S. Ct. 10, 15 (2013).
Furthermore, in reviewing a state court’s decision,
a federal court’s analysis is “backward looking.”
Cullen v. Pinholster, 563 U.S. 170, 182 (2011). The
court is limited to reviewing the record before the state
court at the time that court made its decision. Id. The
court is also limited to considering the Supreme
Court’s “precedents as of ‘the time the state court
renders its decision.’” Id. (quoting Lockyer v. Andrade,
538 U.S. 63, 71–72 (2003)).
Finally, it must be said that “AEDPA’s standard is
intentionally ‘difficult [for Petitioner] to meet.’” Woods
v. Donald, 135 S. Ct. 1372, 1376 (2015) (per curiam)

28a
(quoting White v. Woodall, 134 S. Ct. 1697, 1702
(2014)). “As a condition for obtaining habeas corpus
from a federal court, a state prisoner must show that
the state court’s ruling on the claim being presented in
federal court was so lacking in justification that there
was an error well understood and comprehended in
existing law beyond any possibility for fairminded
disagreement.” Harrington v. Richter, 562 U.S. 86,
103 (2011). This “‘highly deferential standard’ . . .
demands that state-court decisions be given the
benefit of the doubt.” Visciotti, 537 U.S. at 24 (quoting
Lindh v. Murphy, 521 U.S. 320, 333 n.7 (1997)). As
the Supreme Court has held, habeas corpus is a “guard
against extreme malfunctions in the state criminal
justice systems, not a substitute for ordinary error
correction through appeal.” Richter, 562 U.S. at 102–
03 (quotation marks omitted). “Under § 2254, a
habeas court must determine what arguments or
theories supported, or . . . could have supported, the
state court’s decision; and then it must ask whether it
is possible fairminded jurists could disagree that those
arguments or theories are inconsistent with the
holding in a prior decision of th[e] [Supreme] Court.”
Id. at 102.
Analysis
To establish an ineffective assistance of counsel
claim, a petitioner must show that (1) counsel’s
performance was constitutionally deficient, and (2) the
deficient performance prejudiced petitioner’s defense.
Strickland v. Washington, 466 U.S. 668, 687 (1984).
This standard applies to “ineffective-assistance claims
arising out of the plea process.” Hill v. Lockhart, 474
U.S. 52, 57 (1985); see also Missouri v. Frye, 566 U.S.
134, 140 (2012). To demonstrate prejudice in the plea

29a
context, “a [petitioner] must show the outcome of the
plea process would have been different with competent
advice.”
For the reasons explained below, the Court finds
that the state appellate court’s application of the
Strickland performance prong to Williams’s claim was
not an unreasonable application of clearly established
Supreme Court law.4 The Court finds, moreover, that
even if Williams were able to demonstrate that the
state appellate court’s conclusion on the performance
prong was unreasonable, Williams would not be able
to demonstrate prejudice.
I.

Strickland Performance Prong

The performance prong of the Strickland test
requires a defendant to show “that counsel’s
representation fell below an objective standard of
reasonableness.”
Strickland, 466 U.S. at 688.
Counsel’s performance is to be generously construed;
“a court must indulge a strong presumption that
counsel’s conduct falls within the wide range of
reasonable professional assistance.”
Id. at 689.
Applying Strickland under AEDPA, which itself
requires deference, results in a double level of
deference to the state court determination. Richter,
562 U.S. at 105 (citing Knowles v. Mirzayance, 556
U.S. 111, 123 (2009)).
4

Williams did not argue in his habeas corpus petition that the
state appellate court’s decision was contrary to clearly
established law, nor could he have plausibly done so. The state
appellate court correctly identified Strickland as the applicable
law, and Williams did not allege that the Supreme Court had
decided a case with “materially indistinguishable facts” from the
present case. See Cone, 535 U.S. at 694.

30a
In his petition to the state appellate court, Williams
argued that trial counsel’s performance was deficient
because counsel (1) misled Williams to reject a plea
offer, and (2) failed to inform Williams of mandatory
consecutive sentences he would face if convicted at
trial. The state appellate court rejected the first
argument, and did not directly address the second,
although this Court assumes under Richter that it was
decided on the merits. See Richter, 562 U.S. at 99
(citing Harris v. Reed, 489 U.S. 255, 265 (1989)). For
the reasons explained below, the Court finds that the
state appellate court reasonably applied the
Strickland deficient-performance prong.
A. Advising Williams to Reject the Plea Offer
Williams argued to the state appellate court that
trial counsel provided ineffective assistance when she
advised him to reject a plea offer of twenty-one years,
consecutive to a twenty-year sentence in Case 2625.
PC App. Pet’r’s Br. at 19; Williams, 2013 WL 6844751
¶ 4.
In his petition to the state appellate court, Williams
contended that it was “misleading for counsel to advise
Williams to go to trial because the sentence offer was
too high when, under the law, Williams could not have
received a shorter sentence.” PC App. Pet’r’s Br. at 19.
This argument relied on two important assumptions:
first, that Williams was facing three counts of
aggravated sexual assault and one count of
aggravated kidnapping, each of which carried a
mandatory minimum of six years and were required to
be served consecutively; and second, that “the State’s
evidence was overwhelming,” PC App. Pet’r’s Br. at 14,
18; see also Williams, 2013 WL 6844751 ¶ 60, and

31a
hence that he was facing a virtual certainty of at least
a twenty-four year sentence if he went to trial, PC App.
Pet’r’s Br. at 19.
While the State agreed that Williams was facing
four counts that carried a mandatory minimum of
twenty-four years if he were found guilty of all of them,
they did not agree that he was certain to be found
guilty of those charges at trial. See Resp’t’s Answer,
Ex. K, State. Br. (“PC App. Govt. Br.”) at 35–36, People
v. Williams, No. 1-11-1913, ECF No. 23-11.
Specifically, the State argued that “while the evidence
on the [sexual assault charges] was virtually
uncontested, the defense did contest the kidnapping
insofar as defendant’s statement to the police
indicated that the victim accompanied defendant to
his home voluntarily and defense counsel argued that
defendant did not ‘snatch’ the victim off the street.”
PC App. Govt. Br. at 35–36; see also Williams, 2013
WL 6844751 ¶ 71. The State argued that therefore
“there was a possibility that defendant could face only
an 18-year term following trial,” three years less than
the plea offer for the case. PC App. Govt. Br. at 35–
36.
The state appellate court agreed with the State’s
view, determining that Williams could have been
acquitted of aggravated kidnapping, and, therefore,
the strategy to proceed to trial and defend against the
kidnapping charge, “although ultimately unavailing,
was a reasonable trial strategy.” Williams, 2013 WL
6844751 ¶ 73. The state appellate court relied on an
Illinois Supreme Court case, People v. Curry, which
applied the Strickland standard to a claim of
ineffective assistance of counsel at the plea-bargain
stage. 687 N.E. 2d 877, 882 (Ill. 1997), abrogated on

32a
other grounds by People v. Hale, 996 N.E.2d 607, 614–
15 (Ill. 2013). As the state appellate court noted,
Curry distinguished between two types of scenarios:
“(a) when counsel’s advice is predicated on an
understanding ‘which was plainly erroneous when
viewed at the time of plea negotiations’ and (b) when
a defense recommendation is the product of strategy
or judgment which was proven to be unwise only in
hindsight.’” Williams, 2013 WL 6844751 ¶ 73 (quoting
Curry, 687 N.E. at 887). The state appellate court
then categorized Williams’s counsel’s advice to reject
the offer as “at worst” in the category of “unwise only
in hindsight.” Williams, 2013 WL 6844751 ¶ 73.
Moreover, the state appellate court also reasoned
that counsel might have advised Williams to reject the
plea offer because Williams stood a chance of acquittal
or a lesser sentence in the second case:
Even if we agreed with defendant that defense
counsel’s advice to reject the guilty plea offer was
unsound as to this case, defendant ignores that
the offer pertained to two cases. The court told the
parties that if defendant pleaded guilty to the
charges he would be sentenced to a 21-year prison
sentence in the instant case, consecutive to a 20year sentence in an unrelated case. We know that
the second offense concerned “similar charges”
and a person named “S.D.,” but defendant has not
described the offense in any detail, much less
shown that counsel’s advice to reject the offer was
unsound as to the second offense. It is entirely
possible that counsel advised defendant to reject
the plea offer, because he stood a chance of
acquittal or a lesser sentence in the second case.

33a
Williams, 2013 WL 6844751 ¶ 74. On both of these
grounds—that Williams had not shown that advising
him to reject a twenty-one-year offer as to the present
case was clearly unsound, and because Williams had
not provided any information about the second case—
the state appellate court found that Williams had not
shown that counsel’s performance was deficient under
Strickland. Id.
The state appellate court’s conclusion that it was
reasonable for Williams’s trial counsel to advise him to
reject the plea offer was a reasonable application of
Supreme Court law. Williams did not present any
information about Case 2625 beyond its docket. See
Williams, 2013 WL 6844751 ¶ 11. Given the lack of
information about Case 2625, and the fact that the
plea offer concerned both cases, it was reasonable for
the Illinois appellate court to conclude that Williams
did not defeat the “strong presumption that counsel’s
conduct falls within the wide range of reasonable
professional assistance.” Strickland, 466 U.S. at 689.
Based on the available facts, it is simply impossible to
say that counsel did not advise Williams to reject the
plea offer because it was the better net decision for
both cases. Accordingly, the state appellate court’s
holding that Williams’s trial counsel did not perform
deficiently by advising him to reject the plea offer
because it was “too much time” was not an
unreasonable application of Supreme Court law.
B. Failure to Advise about Consecutive
Sentences
Williams also argued to the state appellate court
that his trial counsel performed deficiently by
“fail[ing] to advise him [at the plea bargain stage] that

34a
he was subject to mandatory consecutive sentences.”
PC App. Pet’r’s Br. at 2. This component of his
ineffective assistance of counsel claim appears to
encompass two related arguments: first, that he was
not informed that four of his counts were required to
run consecutively under Illinois law, see id. at 16, and
second, that he was not informed of the highest
possible sentence he would face at trial under
mandatory consecutive sentencing, see id. at 22
(“Williams’s petition pleads that he was not told about
a possible 120-year term in either or both cases.”); id.
at 23 (Williams rejected the plea offer because his
counsel had not “fully advis[ed] him of the maximum
consecutive sentences he faced if convicted.”).
Williams now argues that it was unreasonable for the
state appellate court to find his trial counsel was not
ineffective on those grounds.
The state appellate court did not address this aspect
of Williams’s claim. Instead, the court construed
Williams’s claim as only arguing that counsel had
provided ineffective assistance when she advised him
to reject the plea offer. See Williams, 2013 WL
6844751 ¶¶ 59–61 (describing Williams’s claim as
arguing that the circuit court had erred in dismissing
his petition as frivolous because “[i]t was completely
unreasonable for counsel to advise [Williams] to go to
trial” (quoting PC App. Pet’r’s Br. at 19)); see also id.
¶¶ 73–75 (finding that Williams had not satisfied the
first Strickland prong because counsel could
reasonably aim for an acquittal on the aggravated
kidnapping charge and because the offer pertained to
two cases and Williams did not provide any
information about the second case).

35a
Although the state appellate court did not directly
address this aspect of Williams’s claim, the Court
presumes that the state court still decided the matter
“on the merits,” as defined by 28 U.S.C. § 2254(d).
“When a federal claim has been presented to a state
court and the state court has denied relief, it may be
presumed that the state court adjudicated the claim
on the merits in the absence of any indication or statelaw procedural principles to the contrary.” Richter,
562 U.S. at 99 (citing Harris v. Reed, 489 U.S. 255, 265
(1989)). The Richter presumption applies when the
state court’s decision expressly addresses some but not
all of a prisoner’s claims. Johnson v. Williams, 133 S.
Ct. 1088, 1094 (2013); see also Lee v. Avila, 871 F.3d
565, 572 (7th Cir. 2017) (applying the Richter
presumption to an argument that counsel’s failure to
object to a prosecutor’s closing was ineffective
assistance, when the argument “was not raised as an
independent Strickland claim in the state appellate
court” but was rather “mentioned as part of the factual
basis for [petitioner]’s broader claim”). Accordingly,
the Court presumes that this matter was adjudicated
on the merits and that the state appellate court found
that Williams did not make a sufficient showing that
counsel was ineffective in this regard. The review of
this denial proceeds under § 2254(d)’s deferential
standard, where the Court asks whether any
fairminded jurist might find the state’s approach in
line with Supreme Court holdings. See Richter, 562
U.S. at 102; Lee, 871 F.3d at 572 (applying this test
when a state court failed to address all aspects of an
ineffective assistance of counsel claim).
While the State does not directly acknowledge the
state appellate court’s failure to address this aspect of

36a
the claim, it does present one way to view the court’s
decision on this matter as reasonable. The State
argues that Williams never specifically alleged in his
post-conviction petition that trial counsel misinformed
or failed to inform him of the sentencing range.
Instead, they contend, he merely stated that “defense
counsel never apprised Petitioner that in the instant
case alone, there were 37 counts for which Petitioner
could receive multiple or consecutive sentences.”
Resp’t’s Answer at 19 (quoting Ex. I, Postconviction
Common Law Record, Pet’r’s Postconviction Pet.
(“Pet’r’s PC Pet.”), at C19, ECF No. 23-9).
There are two ways to read the State’s argument.
The first is to view it as an implication that Williams
has procedurally defaulted by not properly presenting
this aspect of his claim to the state trial court. But the
State has already conceded that Williams has fully
exhausted his overall claim for ineffective assistance
of counsel at the plea bargain stage. See Resp’t’s
Answer at 14. And to the extent that the State has not
affirmatively raised a procedural default argument,
the Seventh Circuit dissuades district courts from sua
sponte raising the issue. See Perruquet v. Briley, 390
F.3d 505, 519 (7th Cir. 2004) (“[T]he decision whether
to assert an affirmative defense like procedural
default lies with the Illinois Attorney General in the
first instance, and in the ordinary course of events, her
failure to raise the defense in a timely manner will
result in a forfeiture.” (citations omitted)).
The Court therefore reads the State’s brief instead
to contend that Williams did not lay a sufficient
factual basis to support a claim that counsel had failed
to inform him about the mandatory consecutive nature
of his charges. In addition to the claim that he was

37a
never apprised of the 37 counts he was facing, Pet’r’s
PC Pet. at C19, Williams’s post-conviction petition
stated both that “defense counsel never advised
[Williams] as to the possible consequences of rejecting
the plea offer,” id., and that, “subsequent to the
Court’s [plea] offer,” counsel told Williams that “since
Petitioner was not on bond when the instant case
allegedly occurred, 85% of the largest term [21 years]
would have to be served,” id. at C19–20 (alterations in
original). The Court finds that Williams’s allegations
on this point are sufficiently vague and contradictory
(he was alternately “never advised” of the “possible
consequences” and then advised of a specific time he
would need to serve) that a fairminded jurist could
find the evidence insufficient to support a claim of
ineffective assistance of counsel.5
5

The State also argues that Williams’s statement that his
defense counsel “advised Petitioner to decline the Court’s offer of
21 and 20 years consecutive, while fully cognizant that in the
instant case alone, the Court could impose consecutive sentences
with an aggregate total of 120 years,” Pet’r’s PC Pet. at C24,
suggests that Williams’s counsel informed him that he faced a
possible 120-year sentence. Resp’t’s Answer at 19. The Court
declines to so read Williams’s statement. Given his claims, it is
far more likely that Williams is merely speculating about his
counsel’s knowledge at the time.
Moreover, because the Court has already identified one basis
for finding that the state appellate court’s decision was not an
unreasonable application of clearly established Supreme Court
law, the Court need not explore the contours of whether failing to
inform a criminal defendant about mandatory consecutive
sentencing constitutes ineffective assistance of counsel. The
Court recognizes, however, that multiple federal courts of appeal
have concluded that “an attorney who fails to inform his clients
of direct consequences of a conviction is ineffective,” and that
direct consequences include “the minimum amount of time a

38a
Because a fairminded jurist could find the evidence
insufficient to support a claim that Williams’s counsel
failed to advise him of the mandatory consecutive
nature of the sentences he was facing, the state
appellate court’s decision on this aspect of Williams’s
claim was “within the bounds of reasonable judicial
opinion.” Lee, 871 F.3d at 572. As a result, the state
appellate court’s decision was not an unreasonable
application of federal law.
II. Strickland Prejudice Prong
Lafler v. Cooper lays out the steps to satisfy the
prejudice prong of the Strickland test where
ineffective assistance of counsel led to rejection of a
favorable plea bargain. 566 U.S. 156 (2012). First, “a
defendant must show that but for the ineffective
advice of counsel there is a reasonable probability that
the plea offer would have been presented to the court
(i.e., that the defendant would have accepted the plea
and the prosecution would not have withdrawn it in
light of intervening circumstances).” Lafler, 566 U.S.
at 164. The defendant must also demonstrate “that
the court would have accepted its terms,” and finally,
“that the conviction or sentence, or both, under the
offer’s terms would have been less severe than under
the judgment and sentence that in fact were imposed.”
Id.
The Seventh Circuit has further clarified the first
component of this test, holding in Quintana v.
Chandler that a petitioner must come forward with
defendant must serve and the maximum amount of time he may
serve.” McDonald v. Hardy, 359 Fed. Appx. 650, 655 (7th Cir.
2010) (collecting cases). The Supreme Court, however, has not
yet so held.

39a
evidence demonstrating he or she would have accepted
the plea, beyond a mere “self-serving statement” and
a contention that “most or many defendants in his
position would accept the plea.” 723 F.3d 849, 857 (7th
Cir. 2013). A petitioner “must offer something more
than the large gap in sentence lengths to show that he
would have accepted the sentence,” because “even in
the face of a favorable plea offer and unfavorable facts,
some defendants might still advance to trial, swearing
they are innocent and thinking they can succeed
against the state.” Id.
Because the state appellate court did not find that
the Strickland performance prong was met, it
explicitly did not consider the prejudice prong.
Williams, 2013 WL 6844751 ¶ 75. Accordingly, review
of this prong is de novo. See Earls v. McCaughtry, 379
F.3d 489 (7th Cir. 2004) (reviewing Strickland
prejudice prong de novo because the last reasoned
state court decision did not adjudicate it on the
merits).
The Court easily finds that Williams’s claim fails
the first component of the Lafler test for Strickland
prejudice. Beyond the lack of objective evidence
demonstrating that Williams would have accepted the
plea if not for counsel’s ineffectiveness, there is a
gaping hole in his record regarding any details about
the second case. Even if, as Williams alleges, twentyone years was a bad bargain in the instant case, and
even if Williams was not advised of the mandatory
consecutive nature of the sentences he faced, with
almost no information about Case 2625 there is no way
to make any prediction about whether Williams would
have accepted the plea under other circumstances.
For all this Court knows, the evidence was scant on

40a
the other case and acquittal was likely, making the
overall plea of forty-one years much less attractive
even if Williams had indeed fully understood the
nature of the sentences he faced in this case.
Accordingly, Williams is unable to demonstrate
prejudice under Strickland and the state appellate
court’s decision to deny Williams’s ineffective
assistance of counsel claim is a reasonable application
of clearly established federal law.
III. Request for an Evidentiary Hearing
While this habeas case was pending, Williams filed
a motion for an evidentiary hearing in this Court. See
ECF No. 26. Williams contends that an evidentiary
hearing is necessary “to find out why counsel told
[Williams] to reject the court’s offer” and whether
“counsel fully informed his client, if he rejects the offer
the possible sentence would be greater and run
consecutive.” Id. at 5.
But AEDPA only permits district courts to hold
evidentiary hearings if, among other things, that “the
facts underlying the claim would be sufficient to
establish by clear and convincing evidence that but for
constitutional error, no reasonable factfinder would
have found the applicant guilty of the underlying
offense.” 28 U.S.C. § 2254(e)(2)(B). Functionally,
AEDPA permits evidentiary hearings only by those
prisoners “who present new evidence of their
innocence.” McQuiggin v. Perkins, 569 U.S. 383, 395
(2013).
Because Williams makes no claim of
innocence—in fact, his entire petition rests on the idea
that his guilt was obvious to any factfinder—he is
ineligible for an evidentiary hearing.

41a
Certificate of Appealability
Under Rule 11 of the Rules Governing § 2254 Cases,
the Court must consider whether it should issue a
Certificate of Appealability when entering a final
order adverse to a petitioner. Issuing a certificate is
appropriate only if “the applicant has made a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). The standard for
making a “substantial showing” is whether
“reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or
wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
If a court denies a petition on procedural grounds, a
petitioner must show that both the procedural ruling
and the underlying constitutional claim are debatable.
Id. at 484.
Here, given the absence of information about
Williams’s second case and the presumption that
counsel is competent, no reasonable jurist could find
the Court’s assessment of Williams’s Strickland claim
was debatable. The Court therefore declines to issue
a certificate of appealability.
Conclusion
For the reasons stated herein, the Court denies
Williams’s habeas corpus petition [1] on the merits.
The Clerk is instructed to enter a judgment in favor of
Respondent and against Williams. Williams’s motion
for an evidentiary hearing [27] is also denied.
Williams is advised that this is a final decision ending
his case in this Court. The Court declines to issue a
certificate of appealability. If Williams wishes to
appeal, he must file a notice of appeal with this Court

42a
within thirty days of the entry of judgment. See Fed.
R. App. P. 4(a)(1).
IT IS SO ORDERED. ENTERED 6/29/18
_________________________
John Z. Lee
United States
District Judge

43a

APPENDIX C
SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
March 26, 2014
Hon. Lisa Madigan
Attorney General, Criminal Appeals Div.
100 West Randolph St., 12th Floor
Chicago, IL 60601
No. 117190 – People State of Illinois, respondent, v.
Gregory Williams, petitioner. Leave to
appeal, Appellate Court, First District.
The Supreme Court today DENIED the petition for
leave to appeal in the above entitled cause.
The mandate of this Court will issue to the Appellate
Court on April 30, 2014.

44a

APPENDIX D
2013 IL App (1st) 111913-U
FOURTH DIVISION
December 26, 2013
No. 1-11-1913
NOTICE: This order was filed under Supreme Court
Rule 23 and may not be cited as precedent by any
party except in the limited circumstances allowed
under Rule 23(e)(1).
IN THE
APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
THE PEOPLE OF THE STATE )
OF ILLINOIS,
)
)
Respondent-Appellee, )
)
)
v.
)
)
GREGORY WILLIAMS,
)
Petitioner-Appellant. )
)

Appeal from the
Circuit Court of
Cook County
No. 06 CR 2627
Hon. Joseph M.
Claps,
Judge Presiding

45a
JUSTICE EPSTEIN delivered the judgment of the
court.
Justices Fitzgerald Smith and Lavin concurred in
the judgment.
ORDER
¶1

Held: Trial court did not err in summarily
dismissing defendant’s pro se postconviction
petition alleging ineffective assistance of
counsel where defendant failed to state the gist
of a claim for ineffective assistance of counsel.

¶2
Defendant Gregory Williams was indicted on a
number of charges, including aggravated criminal
sexual assault and aggravated kidnaping, stemming
from events involving a woman referenced herein as
“Jessica.” Following a Supreme Court Rule 402
conference (Ill. S. Ct. R. 402 (eff. July 1, 2012) (the
Rule 402 conference)), the court told the parties that if
defendant pled guilty to the charges he would be
sentenced to a 21-year prison sentence in the instant
case involving Jessica, consecutive to a 20-year
sentence in an unrelated case with similar charges.
Defendant declined to accept that disposition. After a
bench trial, defendant was convicted and sentenced to
aggregate consecutive sentences of 66 years in prison
in the instant case.
¶3
Defendant filed a pro se postconviction petition
alleging, among other things, that his trial attorney
was ineffective for advising him to go to trial because
the plea offer was “too much time.” In a written order,
the trial court dismissed the petition, finding
defendant’s claims to be “frivolous and patently
without merit.” The trial court stated, among other
things, that defendant failed to “corroborate his claims

46a
with any supporting affidavits or documents” or to
“explain why he was prevented from including the
required documentation with his petition.” The court
further noted that “[n]othing about counsel’s advice to
[defendant] is unreasonable or misleading” and
defendant did not “show that he would have accepted
the plea had counsel acted differently.”
¶4
On appeal, defendant contends that summary
dismissal of his petition should be reversed because he
“set out a legally and factually arguable claim of
ineffective assistance of counsel where he claimed that
he was not properly advised about the potential
sentences and was given erroneous advice about his
chances at trial, since the plea offer was nearly the
minimum sentence for these offenses and the State’s
evidence of his guilt was overwhelming.” Defendant
further contends that the petition meets the
“procedural requirements” of the Post-Conviction
Hearing Act (725 ILCS 5/122-1, et seq. (West 2010) (the
Act)) or that his failure to meet such requirements “is
excused.”
¶5
For the reasons stated below, we affirm the
decision of the trial court.
¶ 6 BACKGROUND
¶ 7 Events Prior to Trial
¶8
A grand jury indicted defendant on a number of
charges, including multiple counts of aggravated
criminal sexual assault and aggravated kidnaping, in
connection with events on January 9, 2006, involving
Jessica. In February, 2006, defense counsel requested,
and the court ordered, a behavioral clinical
examination for both “fitness and sanity.”

47a
¶9
Roni L. Seltzberg, M.D., a staff forensic
psychiatrist at Forensic Clinical Services who
evaluated defendant at least four times in 2006 and
2007, opined that defendant was (a) fit to stand trial
with medications, (b) was legally sane at the time of
his alleged offenses, and (c) “has the ability to
understand Miranda.” In a letter to the court filed
November 30, 2007, Dr. Seltzberg stated that “[w]hile
cocaine intoxication may have resulted in a
‘substantial disorder of thought, mood or behavior’ at
the time of his alleged offense which could have
impaired his judgment, it was not to the extent that he
would have been unable to appreciate the
wrongfulness of his behavior.”
¶ 10 In December, 2006, the Public Defender’s office
retained a psychiatrist to evaluate defendant. At a
hearing in January, 2008, assistant public defender
Margaret Domin stated that she received
Dr. Seltzberg’s report, but it was not clear from the
report whether Dr. Seltzberg and Dr. Carl Wahlstrom,
the defense expert, agreed “[o]n whether or not
[defendant] is *** guilty but mentally ill because that
would save a lot of time and even avoid a trial.”
¶ 11 On March 11, 2008, the court held the Rule 402
conference. The conference apparently related to two
cases: the instant case – 06 CR 2627 ‒ and 06 CR 2625.
Although the record contains very limited information
regarding the second, unrelated case, the appellate
briefs filed herein indicate that case involved a
different victim but similar facts. Following the
conference, the court offered defendant “on the first

48a
case, 20 years; on the second case, 21 years
consecutive.”1
¶ 12 On August 25, 2008, the scheduled trial date,
Ms. Domin stated, in part, as follows:
“The defense is guilty but mentally ill, but
technically isn’t an affirmative defense. But I
don’t know given a jury, I have to ask my client
because his position is completely changed today.”
After an exchange between the trial court and
defendant about whether defendant wanted a jury
trial, defendant indicated he wanted a bench trial.
Defendant then stated that although Ms. Domin was
a “good person” and “did a lot to help [him] on [his]
case,” he was “really not comfortable with a female”
representing him.
After defendant spoke with
Ms. Domin’s supervisor—and the court confirmed that
defendant’s sole complaint was his concern about her
gender—defendant agreed to Ms. Domin’s continued
representation. Defendant also waived his right to a
jury trial.
¶ 13 Trial
¶ 14 After the attorneys waived opening statements,
Jessica testified that at approximately 7:10 a.m. on
January 9, 2006, she was walking near Cicero Avenue
and Madison Street from a hotel to her home
approximately one block away. Defendant walked in
front of her and asked if she had a brother who had
1Although

there is some ambiguity in the record and the
parties’ appellate briefs, our understanding is that the 21-year
offer related to the instant case and the 20-year offer related to
the other case. Even if our understanding is incorrect, i.e., the
20-year offer related to the instant case, it does not affect our
analysis herein.

49a
clothes he could have because the police were looking
for him; Jessica had never seen defendant before.
Jessica said she did not and kept walking. Defendant
then grabbed Jessica’s arm and said he had a gun.
Defendant told her all she had to do was walk to his
baby’s mother’s home. Defendant’s hand was in his
pocket; he did not show her a gun.
¶ 15 Jessica testified that as she and defendant
walked together, the side of his body was pressed
against her. Approaching an intersection, Jessica saw
her mother and brother at a bus stop; Jessica told
defendant that the two were her mother and brother.
Defendant told Jessica to “[j]ust be cool.” As defendant
and Jessica approached her mother and brother,
defendant instructed Jessica to “just tell them that
[she] was walking him home.” Jessica testified, “I said
it, but it’s like I mumbled it.” Defendant and Jessica
continued walking past her mother and brother.
¶ 16 Defendant and Jessica arrived at an apartment
building and went into an apartment at the top floor.
Jessica testified that no one else was in the apartment.
Defendant told Jessica to look out of the window to see
if any police were coming; she looked and there were
no police.
Jessica looked around the room for
something to hit defendant with and saw a comb with
a sharp end, but defendant took it.
¶ 17 Defendant told Jessica to remove her clothes,
and he put a pornographic movie on the television.
When she did not remove her clothes immediately,
defendant went into the kitchen, got a knife and
returned to Jessica, saying he was not negotiating
with her anymore. Defendant put the knife to her
neck with the blade touching her skin. After telling

50a
her to remove her clothes, defendant had Jessica get
on her knees and slapped her face. Defendant told
Jessica to perform oral sex on him; as she performed
oral sex, he smoked cocaine out of a pipe. Then he told
Jessica to lie down, and he performed oral sex on her.
Defendant then forced intercourse on Jessica, as she
scratched and bit him and tried to push him off.
¶ 18 Jessica testified that defendant apologized to
her and told her to dress. Defendant brought in a baby
from another room and made Jessica hold and feed the
baby. After Jessica used the bathroom, defendant
gave her the telephone and told her to call the police.
Jessica did not call the police; she testified she knew
that defendant was trying to see if she would call so he
could hurt her. Defendant then went to another room
and got a purse; he asked Jessica if it looked “okay.”
She said “yes,” and he offered to walk Jessica home.
Jessica said she would “be okay.” After Jessica and
defendant left the apartment, he walked behind her
until, at some point, she was able to walk away
without the defendant following her. Jessica then saw
a police officer and told her what had happened. The
police took her to hospital and afterwards to the police
station, where, at approximately 5:45 p.m., Jessica
identified defendant in a line-up.
¶ 19 On cross-examination, Jessica testified that
before entering the apartment, defendant made her
check if the police were in the apartment. She testified
that she did not remember hearing the door lock.
Jessica further testified that, after his apology,
defendant said he felt like killing himself. After
Jessica’s testimony, the parties stipulated to the
admission of the police line-up photograph. The
parties also stipulated that biological samples

51a
collected at the hospital from Jessica’s vaginal area
matched defendant’s DNA.
¶ 20 Jessica’s mother, Beatrice T., testified that she
saw defendant walking with her daughter on the
morning on January 9, 2006. Beatrice testified that
Jessica “looked very afraid” and that Jessica “never
looked” at her. Beatrice asked her daughter where she
was going; Jessica did not respond. Defendant said,
“she’s walking me home.” Beatrice then said that “it
should be the other way around,” i.e., defendant
walking Jessica home. The court questioned Beatrice
about her activities on the morning of January 9 and
her understanding of Jessica’s whereabouts. Beatrice
testified that Jessica had not spent the night at home.
When Beatrice and Jessica spoke on the telephone at
approximately 6:30 that morning, Jessica indicated
that she was going to look at apartments with her
mother and would “be there at 7:00 o’clock.”
¶ 21 Detective Elizabeth Miller testified that she
and another detective were assigned defendant’s case.
At approximately 7:30 p.m. on January 9, 2006, Miller
had a conversation with defendant.
The other
detective advised defendant of his Miranda rights, and
defendant said he understood his rights.
¶ 22 According to Detective Miller’s testimony,
defendant told her and the other detective the
following during a series of conversations. After
defendant left his apartment to buy cigarettes, he saw
Jessica and started walking and talking with her.
Jessica told defendant that she was going home and
that she had been with her boyfriend. Jessica “asked
him for a phone number and he told her he didn’t have
a cell phone or a phone at home.” He stated that she

52a
asked him if he had any children, and he said he had
a two-month old daughter. She then asked him if his
daughter looked like him, and he told her to come to
his apartment to see her. As they approached Jessica’s
mother and brother at a bus stop, Jessica told her
mother she was going to walk her friend home. After
arriving at defendant’s apartment building, Jessica
told him that she did not feel comfortable going inside
because she had a boyfriend, but defendant convinced
her by telling her to come in and see his daughter. He
said he knew it would be okay to take her up in the
apartment because his girlfriend was at work.
¶ 23 Detective Miller then testified that defendant
said that after he and Jessica entered his apartment,
he “got his daughter and he changed her and made her
a bottle.” He stated that he let Jessica feed the baby.
As Jessica fed the baby, defendant put on a
pornographic movie and starting smoking crack
cocaine. When he had finished smoking and Jessica
had given the baby a bottle and put the baby to bed,
defendant sat down on the sofa next to Jessica and
“started coming on to her.”
¶ 24 According to Detective Miller, defendant stated
that he told Jessica to take off her clothes and “that if
she took her clothes off he wouldn’t hurt her.” Miller
testified that defendant “said he had to force her legs
apart” to perform oral sex on her and that he then
“grabbed her by the hair and made her orally copulate
him.” Defendant then stated that he laid Jessica on
the floor and began having vaginal intercourse with
her. Miller testified that defendant “could tell that she
didn’t like it, she was just laying there but that he did
it anyway.”

53a
¶ 25 Detective Miller then testified that defendant
stated that when he “was done he got up, went back
and got his baby.” Defendant told the detectives that
he saw that Jessica was crying, he apologized to her,
and he told her that he knew what he did was wrong
and that if she wanted to call the police, she could.
According to Detective Miller’s testimony, defendant
then stated that “he made the baby another bottle,
Jessica had gotten dress [sic], fed the baby the bottle
and he allowed her to leave and he walked her out of
the apartment.” Detective Miller testified that she
called the state’s attorney after an identification was
made in a line-up; defendant would not speak with the
state’s attorney.
¶ 26 On cross examination, Detective Miller testified
that at one point during their conversation, defendant
asked Miller to leave the room. Miller stated that
initially defendant spoke with the other detective but
after the other detective was done speaking with
defendant, “he came out and we conferred about what
he had talked about and then I went back in the room
and we went over it again.” Miller testified that
defendant told her that he hears voices telling him to
do bad things and that he was sexually abused by his
cousins when he was young. Defendant was crying
“[t]owards the end” of their conversation. When asked
by defense counsel, “And he never told you that he
grabbed this woman out on the street, correct?” Miller
responded “[c]orrect.”
¶ 27 The defense moved for a directed finding, which
the court granted with respect to eleven counts. The
defense then called Dr. Wahlstrom, a physician
specializing in forensic psychiatry who examined
defendant in jail for approximately three hours in

54a
June, 2007. Dr. Wahlstrom testified that the purpose
of the examination “was to determine the nature and
extent of any mental illness that might be present in
Mr. Williams and to what effect that may have had on
the offense that he is charged with, along with looking
at issues regarding fitness, mental fitness to stand
trial.”
Before his examination, Dr. Wahlstrom
reviewed a number of documents, including police
records and health reports from the Cook County Jail
health facility. He also reviewed Chicago Reed Mental
Health Center records for the defendant from 1987,
various medical and mental health records from seven
correctional centers, and Forensic Clinical Services
psychiatric summaries and notes.
¶ 28 Dr. Wahlstrom testified that defendant was on
psychiatric medications at the time of his examination
and that defendant had a “long standing history of
mental illness beginning in childhood.” Defendant
was an abused child and had past diagnoses of mental
illness, including schizophrenia. When asked his
opinion “to a reasonable degree of medical and
psychiatric certainty as to whether [defendant] was
suffering from a mental illness at the time of the
offense,” Dr. Wahlstrom responded:
“That he was suffering from *** mental illness
and at the time of the offense, and that those
illnesses were in my opinion substantial disorders
of thought, mood, and behavior and they affected
his judgment and perceptions but not to the
extent that he lacked substantial capacity to
appreciate the criminality of his conduct.”
Dr. Wahlstrom further opined that defendant, at the
time of the doctor’s testimony, suffered from

55a
“schizophrenia paranoid type, a major depressive
disorder that was recurrent in partial remission,
cocaine
abuse,
and
borderline
intellectual
functioning.” When asked his opinion as to whether
defendant was insane at the time of the offense,
Dr. Wahlstrom opined that he did not meet the legal
criteria for insanity at that time.
¶ 29 After defendant declined to testify and the
defense rested, the State questioned Dr. Seltzberg as
a rebuttal witness. Dr. Seltzberg testified that, in
addition to interviewing defendant several times, she
reviewed various records and Dr. Wahlstrom’s report.
When questioned about her professional opinion
regarding whether defendant was mentally ill at the
time of the offense, Dr. Seltzberg testified, in part:
[W]hile Mr. Williams does have a history of some
psychiatric disturbances that at the time of the
commission of the offenses the really only
disturbance that was associated with the
incidents involved was cocaine intoxication.
Cocaine intoxication can be considered a
disturbance of mood, thought or behavior, which
afflicted a person and carries judgment, but not
to the extent that he could not appreciate the
material act of his conduct. So that if cocaine
intoxication is considered by your Honor, by the
court to be, to fulfill the criteria, that that’s at
your discretion. But based on my training in
forensic psychiatry and expertise, substance
intoxication is generally not considered in the
forensic field, from my experience, to be
consistent with the type of disorder that’s
generally considered to be something that would
be accepted as a mental illness.”

56a
Dr. Seltzberg did not believe there was information to
support a diagnosis of schizophrenia.
She also
testified that “there really was little reason to doubt”
her initial impression that defendant was
malingering, noting that “the symptoms that he
presented with were not consistent with a psychotic
mental illness nor with a mood disturbance or mental
retardation.”
¶ 30 In closing arguments, defense counsel argued
that for “each and every count with respect to the
element of knowledge or intention, we would rely on
Dr. Wahlstrom not to the point where it affected that
he knew he was doing, obviously, it’s not an insanity
defense, Judge, but based on on [sic] the mens rea we
would argue that he was mentally ill at the time of the
offense.”
Defense counsel confirmed the court’s
clarification that the defense’s position was that its
expert’s opinion “is that the defendant is responsible
for his actions but mentally ill.”
¶ 31

Defense counsel further argued, in part, that:

Certainly, you heard the facts and we had facts
that showed that [Jessica] entered this building,
[Jessica] was given a cell phone, [Jessica] was in
a building with many entrances or at least one,
more than one entry and exit, that she saw her
19-year-old brother and her mother at a bus stop,
she did not cry out within arm’s length was her
testimony.
Judge, we would argue that she was not
confined against her will for each and every
charge which includes the charges of kidnaping or
aggravated kidnaping.
***

57a
With respect to a threat of force, your Honor, I
don’t believe the State in the two, the burden of
beyond a reasonable doubt has shown that either
in terms of what occurred and how [Jessica]
described what had occurred in that apartment
building, and your Honor, we would ask for a
finding of not guilty or guilty but mentally ill.
¶ 32 The trial court found defendant guilty of a
number of charges, including multiple counts of
aggravated criminal sexual assault and aggravated
kidnaping. The court rejected the defense’s guilty but
mentally ill position, stating it was “clear” that
“Dr. Selzberg’s opinion on this matter is the correct
opinion.”
¶ 33 Events after trial
¶ 34 After denying defendant’s motion for a new
trial, the court stated that sentencing would be on
eight counts — 1, 5, 12, 8, 15, 19, 22 and 33. The court
stated that”[s]ince 1, 8 and 15 are all aggravated
sexual assaults, but different assaults, those would be
consecutive, to 1, 8 and 15.” After counsel argued at
the sentencing hearing, defendant’s mother testified
on his behalf. Defense counsel pointed out that the
pre-sentence report (PSI) reported abuse. Before
sentencing, defendant thanked Ms. Domin “for being
there for [him], and helping [him] at the trials and
tribulations,” and he apologized to his family and
community.
¶ 35 Defendant was sentenced to three consecutive
22-year terms for aggravated criminal sexual assault
convictions and received concurrent 22-year sentences
for the remaining convictions. Defendant’s motion to
reconsider sentence was denied.

58a
¶ 36 Defendant filed a direct appeal. On February 4,
2011, this court entered an order affirming
defendant’s conviction and sentences and correcting
the mittimus to add one additional day of
presentencing custody credit.
¶ 37 On March 11, 2011, defendant filed his pro se
postconviction petition. In the petition, defendant
contended, among other things: (a) defense counsel
failed “to investigate and/or produce any additional
evidence after requesting a fitness hearing”; (b)
defense counsel failed to keep defendant reasonably
informed about the status of his criminal proceedings;
(c) defense counsel failed to advise defendant
regarding the “strategic difference between a bench
and jury trial”; (d) defense counsel failed to seek a
third opinion in light of the two conflicting expert
opinions; (e) defense counsel never sought
independent testing of the DNA evidence; (f) the trial
court failed to properly admonish defendant; and (g)
appellate counsel failed to raise or preserve the
admonishment issue. Defendant also contended, in
part, as follows:
“*** Defense counsel, while fully cognizant of the
instant case in its entirety, furnished Petitioner
with erroneous advice, which consequently
misled him into rejecting the Court’s plea offer.
Subsequent to the Court’s offer, Petitioner asked
defense counsel how many years would he have to
serve.
Defense counsel asserted that since
Petitioner was not on bond when the instant case
allegedly occurred, 85% of the largest term [21
years] would have to be served. Then defense
counsel express [sic] that the Court’s offer was
‘too much time’ and that the State had no

59a
evidence. Defense counsel conveyed that with a
plea offer of that much time it would be best to
just go to trial. Defense counsel then proceeded
to demand trial while asserting that Petitioner
was guilty but mentally ill.
Defense counsel’s questionable practices
appeared oxymoronic, unconscionable, and
absent any strategic foundation.
While it’s
axiomatic that ‘guilty, but mentally ill’ is not a
defense, but rather an alternative verdict
premised on an insanity defense; it remains
unclear as to why defense counsel would attempt
to raise ‘insanity’ after the court denied a fitness
hearing and conducted a ‘402’ conference. ***”
¶ 38 On May 20, 2011, the circuit court entered a
written order summarily dismissing defendant’s
claims as “frivolous and patently without merit” and
denying defendant’s request for leave to proceed in
forma pauperis and for appointment of counsel.
Noting that defendant “only attached an affidavit
verifying the truth and accuracy of his petition,” the
court concluded that defendant “failed to corroborate
his claims with any supporting affidavits or
documents” in accordance with section 122-2 of the
Act. The court further held that defendant’s claims
were without merit. Among other things, the court
addressed defendant’s contention that trial counsel
gave erroneous advice that misled him into rejecting
the court’s plea offer:
“Petitioner contends that counsel’s advice was
unsound and that her trial strategy after the
failed plea negotiations were ‘oxymoronic’ and
‘unconscionable.’ However, petitioner also stated

60a
that counsel informed him that 85% of the largest
term for which he was eligible, 21 years, would
have to be served. Petitioner goes on to mention
that counsel told him that court’s plea offer was
too much time and it would be best to go to trial.
Nothing about counsel’s advice to petitioner is
unreasonable or misleading. Further, petitioner
does not show that he would have accepted the
plea had counsel acted differently. Petitioner’s
disagreement with counsel’s choice of defense
strategy does not amount to ineffective assistance
of counsel.”
Defendant timely appealed the dismissal of his
postconviction petition.
¶ 39 ANALYSIS
¶ 40 On appeal, defendant contends that the
summary dismissal of his pro se petition should be
reversed where trial counsel rendered ineffective
assistance by advising defendant to reject the trial
court’s 21-year offer. Defendant also contends that he
has met the requirements of the Act or that his failure
to do so is excused.
¶ 41 We begin our analysis with the requirements of
the Act. If defendant’s failure to comply with the Act’s
filing requirements warrants summary dismissal,
then we need not consider defendant’s contentions
regarding trial counsel’s alleged ineffective assistance.
¶ 42 Defendant’s petition and related documents
¶ 43 The parties disagree regarding whether
defendant’s petition complies with the Act. We
provide below a brief description of defendant’s filing.

61a
¶ 44 The
first
document
is
captioned
“Certificate/Proof of Service.” It provides, in part, that
“I placed the attached petition for post-conviction
relief and motion to proceed in forma pauperis in the
institutional mail system at Stateville Correctional
Center.” It is signed by defendant. The following
language is below defendant’s signature:
“I, Gregory Williams, affiant, do hereby declare
and affirm pursuant to 735 ILCS 5/109, under
penalty of perjury, that everything contained
herein is true and accurate to the best of my
knowledge and belief. Finally, I do declare and
affirm that the matter at hand is not taken either
frivolously or maliciously and that I believe the
forgoing [sic] matter is taken in good faith.”
Defendant then dated and signed this page—a second
time—as “Affiant,” and his signature was notarized.
¶ 45 The next document is captioned “Motion to
Proceed in Forma Pauperis and to Appoint Counsel.”
Below defendant’s signature is the following language:
“I, GREGORY WILLIAMS, affiant, do hereby
declare and affirm pursuant to 735 ILCS 5/109,
under penalty of perjury, that everything
contained herein is true and accurate to the best
of my knowledge and belief. I further declare and
affirm that the contents of the foregoing
documents are known to me and are accurate to
the best of my knowledge and belief. Finally, I do
declare and affirm that the matter at hand is not
taken either frivolously or maliciously and that I
believe the foregoing matter is taken in good
faith.”

62a
Defendant signed—a second time—and dated the
page; there is no notarization.
¶ 46 The next document is the Petition for PostConviction Relief. On the last page of the petition,
after the prayer for relief, defendant signed the
petition. Below his signature is an “Affidavit” which
provides, that “I, Gregory Williams, being first duly
sworn, state that I have read the foregoing petition
and that the contents contained therein are true and
accurate to the best of my knowledge, information and
belief.” Defendant then signed again. Below his
second signature is the following paragraph:
“I, Gregory Williams, affiant, do hereby declare
and affirm pursuant to 735 ILCS 5/109, under
penalty of perjury, that everything contained
herein is true and accurate to the best of my
knowledge and belief. I further declare that the
contents of the foregoing documents are known to
me and accurate to the best of my knowledge and
belief. Finally, I do declare and affirm that the
matter at hand is not taken either frivolously or
maliciously and that I believe the foregoing
matter is taken in good faith.”
Defendant then signed—a third time—as “Affiant”
and dated the page; there is no notarization.
¶ 47 Requirements of the Act
¶ 48 “In noncapital cases, the Act establishes a
three-stage process for adjudicating a postconviction
petition.” People v. Turner, 2012 IL App (2d) 100819,
¶ 18. “At the first stage, ‘the trial court, without input
from the State, examines the petition only to
determine if [it alleges] a constitutional deprivation
unrebutted by the record, rendering the petition

63a
neither frivolous nor patently without merit.” Id.
(quoting People v. Phyfiher, 361 Ill. App. 3d 881, 883
(2005)). “Section 122-2.1 of the Act directs that, if the
trial court determines that the petition is frivolous or
patently without merit, it shall dismiss it in a written
order.” Id. (Citing 725 ILCS 5/122-2.1(a)(2) (West
2010)); see also People v. Hodges, 234 Ill. 2d 1, 10
(2009); People v. Brown, 236 Ill. 2d 175, 184 (2010). A
petition is frivolous or patently without merit only if it
has no arguable basis either in law or fact. Hodges,
234 Ill. 2d at 16. A petition has no arguable basis in
law or fact if it is based on an indisputably meritless
legal theory or on a fanciful factual allegation. Id. at
16–17; Brown, 236 Ill. 2d at 185. At the first stage of
postconviction proceedings, a pro se defendant need
only allege the “gist” of a constitutional claim. Hodges,
235 Ill. 2d at 11. We review the summary dismissal of
a postconviction petition de novo. People v. Torres, 228
Ill. 2d 382, 394 (2008).
¶ 49 Section 122-1 of the Act requires, in part, that a
defendant file a petition “verified by affidavit.” 725
ILCS 5/122-1(b) (West 2010). Courts have referred to
the affidavit required by section 122-1 of the Act as a
“verification affidavit.” See People v. Cage, 2013 IL
App (2d) 111264, ¶ 12. Defendant contends that
“[e]ven if [he] failed to verify his petition by notarized
affidavit, which [he] does not concede, such lack should
not be fatal to [his] petition at this stage, as the first
stage is the time to evaluate substantively whether a
petition states a claim.” (Emphasis in original). The
State
counters
that
“[d]efendant’s
unsworn
verification documentation attached to his petition
does not satisfy the requirement under the Act
mandating that the petition be verified by ‘affidavit.’”

64a
The State further contends that the “notarized
‘affidavit’ ” attached to his proof of service “merely
certifies that he placed his post-conviction petition in
the institutional mail system at Statesville on
February 18, 2011. It offers no verification or support
for the allegations contained in the post-conviction
petition itself.”
¶ 50 Section 122-2 of the Act provides, in part, that
“[t]he petition shall have attached thereto affidavits,
records, or other evidence supporting its allegations or
shall state why the same are not attached.” 725 ILCS
5/122-2 (West 2010). Defendant contends that he
“cannot be faulted for not having gotten his public
defender to swear an affidavit that she rendered
ineffective assistance.” Defendant also argues that
because section 122-2 of the Act requires “affidavits,
records, or other evidence,” even if defendant’s
“affidavit” did not qualify as an affidavit under the
Act, it “qualifies as ‘other evidence’***.” The State
asserts that defendant’s failure to attach the
necessary “affidavits, records, or other evidence” or
explain their absence is fatal to the postconviction
petition.
Specifically, the State contends that
“[d]efendant’s petition lacks the necessary evidentiary
support insofar as he attached no affidavit, not even
his own, to establish the factual details in support of
his claim.”
¶ 51 In
its
order
dismissing
defendant’s
postconviction petition, the circuit court stated that
defendant “only attached an affidavit verifying the
truth and accuracy of his petition.” The order
provided, however, that defendant “failed to
corroborate his claims with any supporting affidavit or
documents” and “fail[ed] to explain why he was

65a
prevented from including the required documentation
with his petition.” The court stated that defendant’s
claims “are conclusory and fail to meet the legal
requirements of the Act.”
¶ 52 Courts addressing the requirement of section
122-1 that a postconviction petition be “verified by
affidavit” have reached different conclusions
regarding whether a lack of notarization justifies
summary dismissal of a petition. The Second District
generally has held that “[a]ffidavits filed pursuant to
the Act must be notarized to be valid.” People v. Carr,
407 Ill. App. 3d 513, 515 (2011) (citing People v.
Niezgoda, 337 Ill. App. 3d 593, 597 (2003)). See also
People v. Hommerson, 2013 IL App (2d) 110805, ¶ 15;
People v. McCoy, 2011 IL App (2d) 100424, ¶ 10; People
v. Nitz, 2011 IL App (2d) 100031, ¶ 17 (noting that
defendant’s “inclusion of a 1-109 certification” could
not cure his failure to have a properly notarized
affidavit). But see People v. Cage, 2013 IL App (2d)
111264, ¶ 14 (disagreeing with Carr, McCoy, and
Hommerson); People v. Gardner, 2013 IL App (2d)
110598, ¶ 14; People v. House, 2013 IL App (2d)
120746, ¶ 21. The First and Fourth Districts have
held that the failure to attach a notarized affidavit to
a postconviction petition is not an appropriate reason
to summarily dismiss the petition at the first stage.
See, e.g., People v. Terry, 2012 IL App (4th) 100205,
¶ 22 (noting that “[t]he notarization issue is a more
appropriate objection at the second stage”). See also
People v. Stephens, 2012 IL App (1st) 110296, ¶ 85.
¶ 53 In People v. Collins, 202 Ill. 2d 59 (2002), the
defendant filed a pro se post-conviction petition
alleging that his attorney said he would file an appeal
but had not. Id. at 62. The sole attachment to

66a
defendant’s petition was the following sworn
verification:
“I, London Collins, a prisoner
incarcerated in Tamms Minimum Security Unit, have
read and understand the above Petition for Post
Conviction Relief. All the facts presented are true and
correct to the best of my recollection.” Id. The Illinois
Supreme Court rejected the defendant’s contention
that his sworn verification could serve as a substitute
for the “affidavits, records, or other evidence” mandate
by Section 122-2 of the Act. Id. at 66. The court
discussed the distinction between the requirements of
section 122-1 and 122-2 of the Act:
“[U]nder the plain language of the Act, the sworn
verification described in section 122-1 serves a
purpose wholly distinct from the ‘affidavits,
records, or other evidence’ described in section
122-2. The former, like all pleading verifications,
confirms that the allegations are brought
truthfully and in good faith. [Citations.] The
latter, by contrast, shows that the verified
allegations are capable of objective and
independent corroboration. To equate the two is
not only to confuse the purposes of subjective
verification and independent corroboration but
also to render the ‘affidavits, records, or other
evidence’
requirement
of
section
122-2
meaningless surplusage. We will not adopt such
a reading. [Citations.]” Id. at 67.
The supreme court also distinguished two cases cited
by the defendant for the proposition that a sworn
verification is all that is needed to substantiate a
postconviction claim arising from discussions between
a criminal defendant and his attorney: People v.
Washington, 38 Ill. 2d 446 (1967) and People v.

67a
Williams, 47 Ill. 2d 1 (1970). The Collins court
observed that the petition at issue in Washington
contained an explanation of why the necessary
“affidavits, records, or other evidence” were
unobtainable, and thus “explicitly complied” with the
requirements of section 122-2. Collins, 202 Ill. 2d at
67.
Although the petition in Williams did not
“explicitly explain” why affidavits, records or other
evidence were not attached, “it did contain facts from
which this court easily inferred that ‘the only affidavit
that petitioner could possibly have furnished, other
than his own sworn statement, would have been that
of his attorney.’“ Id. at 68, citing Williams, 47 Ill. 2d
at 4.
¶ 54 The Collins court recognized that requiring the
attachment of affidavits, records, or other evidence
“will, in some cases, place an unreasonable burden
upon post-conviction petitioners,” such as in
Washington and Williams, but stated that “[t]his does
not mean *** that the petitioners in such cases are
relieved of bearing any burden whatsoever.” Id. at 68.
The court stated that “[o]n the contrary, section 122-2
makes clear that the petitioner who is unable to obtain
the necessary ‘affidavits, records, or other evidence’
must at least explain why such evidence is
unobtainable.” Id. Noting that the defendant was
asking to be excused “not only from section 122-2’s
evidentiary requirements but also from section 122-2’s
pleading requirements” (emphasis in original), the
court concluded that the petition was properly
dismissed. Id. at 68–69.
¶ 55 In People v. Henderson, 2011 IL App (1st)
090923, the defendant attached to his pro se postconviction petition a signed but unnotarized affidavit

68a
in which he swore to the truth of the allegations in his
petition pursuant to section 1-109 of the Illinois Code
of Civil Procedure (the Code) (735 ILCS 5/1-109) (West
2008)). Id. at ¶ 5. After reviewing decisions from
various districts, the court concluded that “the Act
allows summary dismissal only where a defect renders
a petition frivolous or patently without merit. By their
traditional meaning, we do not find those terms would
encompass the mere lack of notarization of a
verification affidavit.” Id., ¶ 34. The court further
noted that “[n]otarization of the verification affidavit
has no relation to the substance of a defendant’s
alleged constitutional claim.”
Id.
The court
distinguished between section 122-1 and 122-2:
“[U]nlike a section 122-2 affidavit, a section 1221 verification affidavit does not show that the
defendant’s allegations can be corroborated and is
not considered when determining whether a
defendant has a factual basis for his claims. Even
where a section 122-1 affidavit is a technical
nullity for lack of notarization, this simply does
not affect the petitioner’s claims or right to relief.”
Id.
The court concluded that “an unnotarized verification
affidavit is not an appropriate basis for first-stage
dismissal of a petition.” Id., ¶ 36.
¶ 56 In defendant’s case, even if the notarization on
the “Certificate/Proof of Service” filed by defendant did
not apply to the petition itself, we agree with the
Henderson conclusion that the failure to notarize is
not fatal for a postconviction petition at first stage
proceedings. We conclude that noncompliance with
section 122-1’s verification affidavit requirement does

69a
not warrant first stage dismissal of defendant’s pro se
petition.
¶ 57 As to the requirements of section 122-2 of the
Act, defendant contends that Collins did not
“absolutely eliminate the exception that allowed the
reviewing court to excuse noncompliance with Section
122-2 where it may be reasonably expected that an
attorney would not provide an affidavit attesting to
her [own] ineffectiveness.” He asserts that our
supreme court “itself distinguished Collins on these
grounds in People v. Hall, 217 Ill. 2d 324, 333 (2005).”
We agree. It does not appear that anyone other than
defendant and his attorney were privy to their
conversation. Thus, only two affidavits were possible:
defendant’s and his attorney’s. We recognize the
challenges of obtaining trial counsel’s affidavit under
the circumstances of this case. An attorney is unlikely
to attest to his or her own shortcomings, even if they
do not rise to the level of ineffective assistance of
counsel. Thus, defendant’s failure to obtain an
affidavit from his attorney should be excused. We
believe that the Illinois Supreme Court’s decision in
People v. Hall, 217 Ill. 2d 324, 333–34 (2005), supports
this result:
“Here, defendant’s explanation for the absence of
additional documentation can easily be inferred
from the allegations of his petition and affidavit.
In these filings, defendant described in detail his
consultations with his attorney.
Defendant
referred only to himself and counsel in these
descriptions and did not mention the presence of
anyone else. These allegations indicate counsel’s
legal advice was rendered within the bounds of a
private consultation between defendant and his

70a
attorney.
This implication is strengthened
because attorney-client consultations generally
occur in private to protect the confidentiality of
privileged information. [CITATION] Thus, the
circumstances of this case permit a reasonable
inference that the only people present during this
consultation were defendant and his attorney.
Given these circumstances, the only affidavit
defendant could have furnished to support his
allegations, other than his own, was that of his
attorney. As noted in Williams, the “difficulty or
impossibility of obtaining such an affidavit is selfapparent.”
[CITATION]
Accordingly, we
conclude the documentation attached to
defendant’s petition is sufficient to comply with
the Act.”
As in Hall, defendant refers to an apparently private
conversation with his attorney. It would be difficult in
these circumstances to obtain his attorney’s affidavit.
¶ 58 This leaves defendant’s own affidavit, which
would be duplicative of his petition. The purpose of a
section 122-2 affidavit is to provide independent
corroboration of the petition’s claims through
affidavits, records, or other means. Collins, 202 Ill. 2d
at 67. Defendant already set forth his substantive
claims in his petition and stated in his section 122-1
verification that the claims in his petition are true. A
section 122-2 affidavit repeating the claims in his
petition could not be considered independent
corroboration. See People v. Teran, 376 Ill. App. 3d 1,
4 (2007) (“[T]he Hall court did not determine that the
defendant’s
affidavit
provided
objective
or
independent corroboration of his claim; indeed,
common sense dictates that a defendant’s own

71a
affidavit is not at all objective or independent.”); see
also Williams, 47 Ill. 2d at 2–4 (advancing a postconviction petition unsupported by affidavits where
“the only affidavit that petitioner could possibly have
furnished, other than his own sworn statement, would
have been that of his attorney***”). We conclude that
defendant’s failure to comply with section 122-2 of the
Act does not warrant summary dismissal of his
petition. We therefore turn to the petition’s merits.
¶ 59

Merits of claim

¶ 60 On appeal, defendant contends that his factual
allegations are not “fantastic or fanciful.” Defendant
states that “the post-conviction court accepted
[defendant’s] factual claims that after the Rule 402
conference his lawyer advised him to reject the offer of
21 years and a consecutive 20 years because his
counsel told him that the offers ‘was too much time’
and that it would ‘be best to go to trial.’” Specifically,
defendant contends that “[i]t was completely
unreasonable for counsel to advise [defendant] to go to
trial in the case at bar because [defendant] was facing
three mandatory consecutive counts of aggravated
criminal sexual assault plus at least one count of
aggravated kidnapping.” According to the defendant,
if he received the minimum sentence of six years on
each count, the minimum consecutive sentence in the
case at bar would be 24 years. Thus defendant
contends that the offer of 21 years was not too high
“because it was lower than the required minimum
sentence.” Given the strength of the State’s case,
defendant contends, “it was likely that [defendant]
would be convicted of three Class X mandatory
consecutive sentences of ACSA (aggravated criminal
sexual assault) and a Class X aggravated kidnapping.”

72a
¶ 61 Defendant asserts that he has alleged a valid
legal theory under People v. Curry, 178 Ill. 2d 509
(1997) and Lafler v. Cooper, 132 S. Ct. 1376 (2012),
discussed below. The State contends that the “circuit
court was *** correct in finding that defendant had
failed to state the gist of a constitutional claim
because:
his allegations did not establish that
counsel’s advice was deficient; and defendant did not
specifically allege that he was willing to plead guilty
to the charges in exchange for the court’s offer of a 41year aggregate sentence absent the alleged deficient
advice.” Distinguishing Curry and Cooper, the State
contends that defendant “cannot show that his
attorney’s advice that the aggregate offer of 41 years[]
was ‘too much’ and defendant should go to trial, was
an
‘unequivocal,
erroneous,
misleading
representation[].” Curry, 178 Ill. 2d at 529. The State
argues that defendant’s petition “portrays trial
counsel’s advice to defendant in terms of strategy and
tactical decision-making clearly involving counsel’s
assessment of the defense” as opposed to Curry or
Cooper, wherein “the attorney’s advice was clearly
deficient because it was based on misapprehension
and ignorance of the law.”
¶ 62 Lafler v. Cooper
¶ 63 In Cooper, the defendant was charged with
intent to murder and other charges. Cooper, 132 S. Ct.
at 1383. On two occasions, the prosecution offered to
dismiss two of the charges and to recommend 51 to 85
months for the other two, in exchange for a guilty plea.
Id. In a communication with the court, the defendant
admitted guilt and expressed a willingness to accept
the offer. Id. The defendant, however, later rejected
the offer on both occasions, allegedly after his attorney

73a
convinced him that the prosecution would be unable to
establish his intent to murder the victim because she
had been shot below the waist. Id. On the first day of
trial, the prosecution offered a “significantly less
favorable” plea deal, which the defendant again
rejected. Id. After trial, the defendant was convicted
on all counts and received a mandatory minimum
sentence of 185 to 360 months’ imprisonment. Id.
After both state and federal appeals, the United States
Supreme Court granted certiorari. Id. at 1383–84.
¶ 64 The Supreme Court discussed Strickland v.
Washington, 466 U.S. 668 (1984), which addresses the
constitutional standards for effective assistance of
counsel. The court noted that, with respect to the
“performance prong” of Strickland—which requires a
defendant to show “that counsel’s representation fell
below an objective standard of reasonableness”—all of
the parties agreed that the performance of the
defendant’s counsel was “deficient when he advised
[defendant] to reject the plea offer on the grounds he
could not be convicted at trial.” Cooper, 132 S. Ct. at
1384. Thus the question for the court was how to apply
Strickland’s second prong—the “prejudice” test—
where ineffective assistance results in a rejection of a
plea offer and the defendant is convicted at the
ensuing trial. Id. “To establish Strickland prejudice
a defendant must ‘show that there is a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.’ [Citation.].” Id. In the context of pleas, “a
defendant must show the outcome of the plea process
would have been different with competent advice.” Id.
Specifically, in circumstances where “[h]aving to stand

74a
trial, not choosing to waive it, is the prejudice alleged,”
a defendant must show that:
“[B]ut for the ineffective advice of counsel there is
a reasonable probability that the plea offer would
have been presented to the court (i.e., that the
defendant would have accepted the plea and the
prosecution would not have withdrawn it in light
of intervening circumstances), that the court
would have accepted its terms, and that the
conviction or sentence, or both, under the offer’s
terms would have been less severe that under the
judgment and sentence that in fact were
imposed.” Id. at 1385.
The court rejected the prosecution’s argument that
essentially “[a] fair trial wipes clean any deficient
performance by defense counsel during plea
bargaining,” observing that such argument “ignores
the reality that criminal justice today is for the most
part a system of pleas, not a system of trials.” Id. at
1388. The Supreme Court ultimately ordered the
prosecution to reoffer the plea agreement, and then,
assuming the defendant accepts the offer, the state
trial court could exercise its discretion to vacate the
convictions and resentence the defendant on some or
all of the convictions or to leave the convictions and
sentences from trial undisturbed. Id. at 1391.
¶ 65 People v. Curry
¶ 66 The defendant in Curry was charged with one
count of residential burglary and two counts of
criminal sexual assault. Curry, 178 Ill. 2d at 512.
During plea negotiations prior to trial, the State
offered to dismiss the count of residential burglary and
one of the two criminal sexual assault charges if

75a
defendant agreed to plead guilty to the remaining
count of criminal sexual assault and accept the State’s
recommendation that he receive a sentence of 4-1/2
years’ imprisonment. Id. The defendant rejected the
plea offer and was subsequently convicted by a jury on
all three counts. Id. The trial judge sentenced
defendant to three consecutive terms of four years’
imprisonment, and the appellate court affirmed. Id.
¶ 67 The Illinois Supreme Court considered whether
the defendant “was denied his right to effective
assistance of counsel during plea negotiations with the
State when his counsel failed to advise him that he
would receive mandatory consecutive sentences *** if
convicted of more than one of the counts with which he
was charged.” Id. At the defendant’s sentencing
hearing, both the State’s attorney and defense counsel
“indicated that they were unaware that consecutive
sentences were mandatory for defendant’s offenses.”
Id. at 515. Defendant filed a motion to reconsider his
sentence, arguing that he had rejected the 4-1/2 year
offer because his attorney mistakenly advised him
that he would face only concurrent sentences of
approximately four years’ imprisonment if he were
convicted of any of the three charges. Id. In support
of these assertions, the defendant attached to his
motion an affidavit from his trial attorney and a
stipulation stating that if the defendant were called to
testify, he would testify that if he had known the
consecutive sentences were mandatory, he would have
accepted the State’s plea offer. Id. at 516.
¶ 68 Our supreme court noted that “it has been well
established that the right to effective assistance of
counsel extends to the decision to reject a plea offer,
even if the defendant subsequently receives a fair

76a
trial.” Id. at 518. Applying the Strickland test, the
court concluded that the defense counsel’s
performance during plea negotiations was objectively
unreasonable and “fell outside ‘the wide range of
reasonable professional assistance.’” Id. Specifically,
defense counsel “affirmatively misstated the
consequences of rejecting the plea offer and made
‘unequivocal, erroneous, misleading representations.’
[Citation.]” Id. at 529. Based on the trial court’s
stated reluctance to impose an aggregate sentence of
twelve years, the supreme court also found that there
was “direct evidence” that the trial court was
amenable to accepting a plea agreement and thus the
defendant was prejudiced by defense counsel’s
performance during plea negotiations. Id. at 536.
¶ 69 Application of Cooper and Curry
¶ 70 This case is distinguishable from Cooper and
Curry in significant ways. In Cooper, the parties
agreed that trial counsel’s performance was deficient;
the sole issue was the “prejudice” prong of the
Strickland test. In Curry, the court concluded that
defense counsel “affirmatively misstated” the
consequences of rejection of the plea offer and “made
‘unequivocal, erroneous, misleading representations.’”
By contrast, the State in this case contends that “there
was nothing legally wrong with counsel’s alleged
advice that the 41 years was ‘too much’[.]” Defendant
counters that his trial counsel did, in fact, provide
erroneous information. The parties’ disagreement
centers primarily on the minimum sentence that could
have been available to defendant following a trial.
¶ 71 The State contends that “[b]ecause consecutive
terms were mandatory on the three sexual assault

77a
charges, defendant faced a minimum of 18 years in
this case”: three consecutive, minimum six year
terms. See 720 ILCS 5/11-1.30 (formerly 720 ILCS
5/12-14(d)(1)); 730 ILCS 5/5-4.5-25(a) (formerly 730
ILCS 5/5-8-1(a)(3)); 730 ILCS 5/5-8-4(d)(2). The State
asserts that “[w]hile the evidence on [the sexual
assault] charges was virtually uncontested, the
defense did contest the kidnapping insofar as
defendant’s statement to police indicated that the
victim accompanied defendant to his home voluntarily
and defense counsel argued that defendant did not
‘snatch’ the victim off the street.” Because there was
a possibility that defendant could face only an 18-year
term following trial, according to the State, the
“aggregate 41-year term may actually have been ‘too
much time’ given counsel’s chosen defense.”
¶ 72 Defendant contends that the correct calculation
of the mandatory minimum he faced was 24 years:
“three mandatory consecutive counts of aggravated
criminal sexual assault for at least six years on each
count, followed by at least one count of aggravated
kidnapping for at least six years.” Defendant asserts
that the trial court was required to order that
defendant serve his ACSA sentences consecutive to
each other as well as consecutively to the sentence on
the aggravated kidnaping charge. See 730 ILCS 5/58-4(a)(i). According to defendant, the 21-year plea deal
was three years less than the mandatory minimum,
and thus was not “too much time.” Defendant argues
that, in light of the uncontested ACSA counts,
Jessica’s account of how she was forced to go to
defendant’s home, and Jessica’s mother’s testimony
that her daughter appeared frightened, the defense

78a
that Jessica went willingly with defendant was almost
certain to fail.
¶ 73 We agree with the State. Defendant could have
been acquitted of aggravated kidnaping. The defense
that Jessica went willingly with defendant, although
ultimately unavailing, was a reasonable trial strategy.
The Illinois Supreme Court in Curry distinguished
between (a) when counsel’s advice is predicated on an
understanding “which was plainly erroneous when
viewed at the time of plea negotiations” and (b) when
a defense recommendation is “the product of strategy
or judgment which was proven to be unwise only in
hindsight.” Curry, 178 Ill. 2d at 529. In the instant
case, the alleged defense advice was, at worst, the
latter. Nothing in defendant’s postconviction petition
suggests that his counsel affirmatively misstated the
consequences of rejecting the plea offer.
¶ 74 Even if we agreed with defendant that defense
counsel’s advice to reject the guilty plea offer was
unsound as to this case, defendant ignores that the
offer pertained to two cases. The court told the parties
that if defendant pled guilty to the charges he would
be sentenced to a 21-year prison sentence in the
instant case, consecutive to a 20-year sentence in an
unrelated case. We know that the second offense
concerned “similar charges” and a person named
“S.D.,” but defendant has not described the offense in
any detail, much less shown that counsel’s advice to
reject the offer was unsound as to the second offense.
It is entirely possible that counsel advised defendant
to reject the plea offer, because he stood a chance of
acquittal or a lesser sentence in the second case.
Accordingly, defendant has not satisfied the first
Strickland prong.

79a
¶ 75 Because we find that the first Strickland prong
was not met, we need not consider the “prejudice”
prong. Defendant stated in the petition that “it is a far
cry to contend that had [defendant] been fully
cognizant and appreciative of the potential detriment
following a finding of guilt, he would have knowingly
rejected the Court’s merciful offer.” However, we note
that, even read liberally in light of defendant’s pro se
status, we do not see any express statement in
defendant’s postconviction petition that, absent his
counsel’s alleged deficient performance, that he would
have accepted the plea offer.2
¶ 76 Finally, in its appellate brief, the State
references the “defense of mental illness” and notes
that “[t]hroughout the proceedings, defense counsel
urged the court to act leniently towards defendant
because of his severe mental illness.” In his reply
brief, defendant observes that “[w]hile it is true that
counsel did hope for a GBMI verdict, such a verdict
would not have resulted in a more lenient sentence
than that offered in the plea deal.” Section 5-2-6 of the
Criminal Code provides, in part, that after a verdict of
guilty but mentally ill (GBMI), the court “may impose
any sentence upon the defendant which could be
imposed pursuant to law upon a defendant who had
2We

recognize that Illinois Supreme Court in People v. Hale,
2013 IL 113140, ¶ 20, stated that the United States Supreme
Court’s decisions in Missouri v. Frye, 132 S. Ct. 1399 (2012), “and
Cooper, rather than Curry, control and the factors set forth in
those cases must now be relied upon in deciding if prejudice has
been shown where a plea offer has lapsed or been rejected because
of counsel’s deficient performance.” In light of our conclusion
regarding the first Strickland prong, we need not investigate the
Frye and Cooper “prejudice” factors discussed in Hale.

80a
been convicted of the same offense without a finding of
mental illness.” 730 ILCS 5/5-2-6 (West 2012). After
an imposition of a sentence of imprisonment, the
defendant “shall be committed to the Department of
Corrections.” (Emphasis added.) Id. The Department
of Corrections “may transfer the defendant’s custody
to the Department of Human Services ***.”
(Emphasis added). Id.
¶ 77 Defendant contends that the State does not cite
to any authority that allows a sentencing court to act
“leniently” toward a defendant found GBMI “such that
the court would disregard statutory sentencing
requirements and order a void sentence.” However,
nothing in the record indicates that defendant’s trial
counsel believed that a GBMI finding would permit
deviation from the statutorily imposed sentencing
ranges. Furthermore, although defense counsel’s
efforts at trial focused primarily on potentially
obtaining a GBMI finding, counsel also argued, among
other things, against a finding of guilt on the
kidnaping and aggravated kidnaping charges. During
cross examination of Jessica, counsel established that
(a) Jessica saw her adult brother and her mother as
she and defendant walked to defendant’s apartment,
(b) Jessica had a cell phone with her, although it was
turned off, (c) defendant left Jessica alone in his living
room briefly after they entered the apartment, and (d)
Jessica did not remember hearing the door lock.
During cross examination of Detective Miller, counsel
confirmed that defendant never told the detectives
that he “grabbed [Jessica] out on the street.” During
closing arguments, defense counsel argued that
Jessica was “not confined against her will for each and
every charge which includes the charges of kidnapping

81a
or aggravated kidnaping.” As noted above, counsel’s
alleged advice that the court’s sentencing offer after
the Rule 402 conference was “too much time” did not
fall below an objective standard of reasonableness,
particularly in light of the defense arguments
regarding the kidnaping and aggravated kidnaping
charges. Similarly, the defense’s attempt to obtain an
GBMI finding, while also unsuccessful, does not
support an ineffective assistance of counsel claim.
¶ 78 We conclude that defendant’s petition failed to
state the gist of a claim for ineffective assistance of
counsel.
¶ 79 CONCLUSION
¶ 80 Defendant’s postconviction petition lacks any
arguable basis in law or fact. We therefore affirm the
trial court’s summary dismissal of the petition.
¶ 81

Affirmed.

82a

APPENDIX E

IN THE CIRCUIT COURT
OF COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT,
CRIMINAL DIVISION
PEOPLE OF THE STATE OF
ILLINOIS,
Plaintiff-Respondent,
v.
GREGORY WILLIAMS,
Defendant-Petitioner.

)
)
)
)
)
)
)
)
)
)
)

Post-Conviction
06 CR 0262701
Hon. Joseph M.
Claps,
Judge Presiding

ORDER
Petitioner, Gregory Williams, seeks post-conviction
relief from the judgment of conviction entered against
him on January 12, 2009. Following a bench trial,
petitioner was found guilty of committing five counts
of aggravated criminal sexual assault; two counts of
aggravated kidnapping and one count of kidnapping in
violation of the Illinois Criminal Code. 720 ILCS 5/1214(a) (West 2006); 5/10-2(a) (3); 5/10-1(a). The trial
court subsequently sentenced petitioner to 22 years’
imprisonment for each of the counts to run
concurrently as to seven of the counts and
consecutively as to one count.

83a
As grounds for post-conviction relief, petitioner
claims: (1) ineffective assistance of trial counsel for (a)
failure to investigate and present evidence of
petitioner’s mental illness, (b) failure to consult with
petitioner, (c) failure to advise petitioner and
misleading petitioner into rejecting the court’s plea
offer, (e) failure to effect a valid jury waiver, (f) failure
to investigate or interview witnesses or procure an
expert witness, (g) failure to assert a competent
defense, (h) failure to object to DNA stipulation, (i)
cumulative effect of counsel’s errors irreparably
prejudiced petitioner; (2) the trial court failed to
properly admonish petitioner; (3) ineffective
assistance of appellate counsel for failure to raise the
admonishment issue.
PROCEDURAL HISTORY
The trial court denied petitioner’s motion for a new
trial on February 3, 2009 and petitioner’s motion to
reconsider sentence on May 22, 2009. Petitioner filed
a direct appeal and the appellate court affirmed his
conviction and sentence by summary order. People v.
Williams, No. 1-09-1671 (Feb. 2, 2011).
Petitioner also filed a pro se civil rights action
pursuant to 42 U.S.C. § 1983 in federal court.
Williams v. County of Cook, 2010 U.S. Dist. LEXIS
85809, 1–2 (N.D. Ill. Aug. 19, 2010). Petitioner
claimed that the defendants, officials at the Cook
County Jail, violated his constitutional rights by
failing to protect him from assaults by fellow detainees
on two occasions, wrongfully placing him in
disciplinary segregation, acting with deliberate
indifference to his medical needs and failing to
respond to his grievances. The United States District

84a
Court for the Northern District of Illinois granted a
motion to dismiss but allowed petitioner leave to
submit an amended complaint concerning his medical
claim.
ANALYSIS
The instant petition was filed on March 11, 2011,
and is before the court for an initial determination of
its legal sufficiency pursuant to Section 2.1 of the PostConviction Hearing Act (the Act). 725 ILCS 5/122-2.1
(West 2011); People v. Holliday, 313 Ill. App. 3d 1046,
1048 (5th Dist. 2000). A post-conviction petition is a
collateral attack on a prior conviction, People v.
Simms, 192 Ill. 2d 348, 359 (2000), not a continuation
of or an appeal from the original case, People v.
Flowers, 208 Ill. 2d 291, 303 (2003). Petitions are
limited to constitutional issues that were not and
could not have been raised on direct appeal. People v.
McNeal, 194 Ill. 2d 135, 140 (2001); People v. King, 192
Ill. 2d 189, 192–93 (2000). Where petitioner raises
non-meritorious claims, the court may summarily
dismiss them. People v. Richardson, 189 Ill. 2d 401,
408 (2000).
Under the Act, petitioner enjoys no entitlement to
an evidentiary hearing. People v. Cloutier, 191 Ill. 2d
392, 397 (2000). In order to obtain a hearing,
petitioner has “to make a substantial showing of a
violation of a constitutional right.” People v. Johnson,
191 Ill. 2d 257, 268 (2000). However, a pro se postconviction petition may be summarily dismissed as
frivolous or patently without merit during the first
stage of post-conviction review unless the allegations
in the petition, taken as true and liberally construed,
present the “gist” of a valid constitutional claim.

85a
People v. Edwards, 197 Ill. 2d 239, 244 (2001). A
petition is frivolous and patently without merit where
the petition has no arguable basis in either law or fact;
i.e., it is based on an indisputably meritless legal
theory or a fanciful factual allegation. People v.
Hodges, 234 Ill. 2d 1, 23 (2009).
I.

Legally Insufficient Claims

Section 122-2 of the Act requires the petition shall
have attached “affidavits, records, or other evidence
supporting its allegations or shall state why the same
are not attached.” 725 ILCS 5/122-2 (West 2006);
People v. Smith, 352 Ill. App. 3d 1095, 1105–06 (1st
Dist. 2004). In this case, petitioner only attached an
affidavit verifying the truth and accuracy of his
petition.
A petition not supported by affidavits, records, or
other evidence is properly dismissed without an
evidentiary hearing unless the defendant’s allegations
are supported by the record. Smith, 352 Ill. App. 3d at
1105–06; People v. Johnson, 183 Ill. 2d 176, 191 (1998).
When a petitioner’s claims are based upon matters
outside the record, the Act does not intend that such
claims be adjudicated on the pleadings. People v.
Coleman, 183 Ill. 2d 366, 382 (1988). Unless positively
rebutted by the record, factual disputes raised by the
pleadings cannot be resolved without an evidentiary
hearing. Coleman, 183 Ill. 2d at 381.
Defendants at the first stage need only present a
limited amount of detail to survive summary
dismissal. People v. Hodges, 234 Ill. 2d 1, 9–10 (2009)
(citing People v. Delton, 227 Ill. 2d 247, 254 (2008);
People v. Torres, 228 Ill. 2d 382, 394 (2008)). However,
this “does not mean that a pro se petitioner is excused

86a
from providing any factual detail at all surrounding
the alleged constitutional violation.” Hodges, 234 Ill.
2d at 10. Without any affidavits, records or other
evidence required by the Act, petitioner’s allegations
are incapable of objective or independent
corroboration. Hodges, 234 Ill. 2d at 11 (citations
omitted).
In this case, petitioner has failed to corroborate his
claims with any supporting affidavits or documents.
Petitioner also fails to explain why he was prevented
from including the required documentation with his
petition. Petitioner’s claims are conclusory and fail to
meet the legal requirements of the Act.
II. Ineffective Assistance of Trial Counsel
Petitioner’s claims are also without merit. To
establish a claim for ineffective assistance of counsel,
Illinois courts adhere to the two-pronged test of
Strickland v. Washington:
(1) that counsel’s
performance fell below an objective standard of
reasonableness; and (2) that there is a reasonable
probability that defendant was prejudiced by counsel’s
deficient performance. 466 U.S. 668 (1984). Prejudice
is found where but for counsel’s unprofessional errors,
the result of the proceeding would have been different.
People v. Albanese, 104 Ill. 2d 504, 525–26 (1984).
Challenges to trial counsel’s representation are
ordinarily not recognized under the Act unless the
claim involves a matter outside of the trial record.
People v. Millsap, 374 Ill. App. 3d 857, 863 (2007). The
failure to satisfy either the deficiency prong or the
prejudice prong of the Strickland test precludes a
finding of ineffective assistance of counsel. People v.

87a
Peeples, 205 Ill. 2d 480, 513 (2002) (citing Strickland,
466 U.S. at 697).
Effective assistance of counsel in a constitutional
sense means competent, not perfect representation.
People v. Easley, 192 Ill. 2d 307, 344 (2000). Courts
apply a strong presumption that counsel’s
performance fell within a wide range of reasonable
professional assistance. Strickland, 466 U.S. at 690.
Reviewing courts defer to trial counsel’s decisions on
matters of trial strategy, “making every effort to
evaluate counsel’s performance from his perspective at
the time, rather than through the lens of hindsight.”
People v. Madej, 177 Ill. 2d 116, 157 (1997).
Furthermore, decisions regarding what evidence to
present and which witnesses to call on a defendant’s
behalf rest with trial counsel and, as matters of trial
strategy, are generally immune from claims of
ineffective assistance of counsel. People v. Perry, 224
Ill. 2d 312, 344 (2007); People v. Ward, 187 Ill. 2d 249,
261–62, (1999). The only exception to this rule is when
counsel’s chosen trial strategy is so unsound that
counsel fails to conduct any meaningful adversarial
testing. People v. Deloney, 341 Ill. App. 3d 621, 634
(Ill. App. Ct. 1st 2003) (citing Ward, 187 Ill. 2d at 262).
a. Failure to Present Evidence of Mental
Illness
Petitioner alleges that counsel failed to produce
evidence of petitioner’s mental illness during his
fitness hearing and at trial. Petitioner concedes that
counsel moved the court to conduct a fitness hearing
but argues that counsel failed to investigate or
produce additional evidence petitioner’s history of
mental illness.

88a
A defendant’s mental illness does not necessarily
make him or her unfit for trial. A person can be fit for
trial if his or her mind is otherwise unsound. People
v. Murphy, 72 Ill. 2d 421, 432 (1978).
The
determination of whether there is a bona fide doubt of
fitness for trial depends on the facts of each case. Id.
at 435. “Relevant factors that a trial court may
consider in assessing whether a bona fide doubt of
fitness exists include a defendant’s ‘irrational
behavior, his demeanor at trial and any prior medical
opinion on competence to stand trial.’” People v.
Stephan, 322 Ill. App. 3d 620, 628 (2001) (quoting
People v. Damico, 309 Ill. App. 3d 203, 209 (1999)).
Doubt of a defendant’s fitness must be “real,
substantial and legitimate doubt” assessed against an
objective standard. People v. Eddmonds, 143 Ill. 2d
501, 518 (1991).
In this case, petitioner does not show that counsel’s
actions were unsound. Counsel presented two expert
witnesses who reached different conclusions. The
court declined counsel’s request for a fitness hearing
based on that evidence. Petitioner does not show that
the outcome of his case would be different if counsel
had obtained additional information about his mental
health history or that the additional history would be
different from what was already presented.
b. Failure to Consult or Advise Petitioner
Petitioner alleges that defense counsel did not keep
him reasonably informed about the status of his case
or help him make informed decisions. “The failure to
consult with defendant may constitute ineffective
assistance if it deprives defendant of an opportunity
he otherwise would have taken advantage of.” People

89a
v. Campbell, 332 Ill. App. 3d 808, 816 (4th Dist. 2002)
(citing Roe v. Flores-Ortega, 528 U.S. 470, 476–80
(2000)). Again, petitioner’s claims are generalized and
do not establish that counsel’s actions prejudiced
petitioner or prevented him from an alternative course
of action.
Petitioner also claims that trial counsel gave
erroneous advice that misled him into rejecting the
court’s plea offer. A criminal defendant has the
constitutional right to be reasonably informed with
respect to the direct consequences of accepting or
rejecting a plea offer. People v. Curry, 178 Ill. 2d 509,
528 (1997) (citing People v. Correa, 108 Ill. 2d 541, 549
(1985) (voluntariness of guilty plea depends upon
whether the defendant had effective assistance of
counsel); Hill v. Lockhart, 474 U.S. 52, 56–57 (1985)).
Therefore, a criminal defense attorney is obligated to
inform his or her client about the maximum and
minimum sentences that can be imposed for the
offenses with which the defendant is charged. Curry,
178 Ill. 2d at 528 (citations omitted).
Petitioner contends that counsel’s advice was
unsound and that her trial strategy after the failed
plea
negotiations
were
“oxymoronic”
and
“unconscionable.” However, petitioner also states that
counsel informed him that 85% of the largest term for
which he was eligible, 21 years, would have to be
served. Petitioner goes on to mention that counsel told
him that the court’s plea offer was too much time and
it would be best to go to trial. Nothing about counsel’s
advice to petitioner is unreasonable or misleading.
Further, petitioner does not show that he would have
accepted the plea had counsel acted differently.
Petitioner’s disagreement with counsel’s choice of

90a
defense strategy does not amount to ineffective
assistance of counsel.
c. Improper Jury Waiver
Petitioner next claims that counsel was ineffective
for executing an improper jury waiver. The right to a
trial by jury is a fundamental right guaranteed by our
federal and state constitutions. People v. Bracey, 213
Ill. 2d 265, 269–270 (2004). Waiver of one’s right to a
jury trial must be made knowingly and
understandingly to be valid. Bracey, 213 Ill. 2d at269
(citing 725 ILCS 5/103-6 (West 2002); In re R.A.B., 197
Ill. 2d 358, 364 (2001); People v. Frey, 103 Ill. 2d 327,
332 (1984)). Whether a jury waiver is valid depends
on particular facts and circumstances of each case. In
re R.A.B., 197 Ill. 2d at 364; Frey, 103 Ill. 2d at 332.
For a waiver to be effective, the court need not
impart to defendant any set admonition or advice.
People v. Smith, 106 Ill. 2d 327, 334 (1985). Generally,
a jury waiver is valid if it is made by defense counsel
in defendant’s presence in open court, without an
objection by defendant. Bracey, 213 Ill. 2d at 270
(citations omitted). Under the prejudice prong of
Strickland, defendant must show “whether there
exists a reasonable likelihood that the defendant
would not have waived his jury right in the absence of
the alleged error.” People v. Todd, 178 Ill. 2d 297, 318
(1997) (quoting People v. Maxwell, 148 Ill. 2d 116, 142
(1992)).
In this case, petitioner alleges that the waiver was
not knowing or intelligent and that counsel bullied
petitioner into signing the waiver. Petitioner’s claims
are unsubstantiated. Further, his claim does not
satisfy Strickland because he does not establish a

91a
reasonable likelihood that he would not have waived a
jury trial had counsel not committed the alleged
errors.
d. Failure to Investigate or Interview
Witnesses; Failure to Procure an
Expert Witness
Petitioner next alleges that counsel failed to
investigate or interview witnesses pertaining to an
insanity defense, during the request for a fitness
hearing or in challenging the DNA test results.
Petitioner’s claims are unfounded. See People v.
Delton, 227 Ill. 2d 247, 258 (2008).
Decisions
regarding witnesses or possible defenses are strategic
matters for trial counsel to decide. Further, petitioner
does not provide any affidavits or documentation
regarding what potential witnesses would testify to or
whether such testimony would have altered the
outcome at trial.
Petitioner alleges that trial counsel should have
procured a third psychological expert after receiving
two conflicting opinions from prior experts. Again,
petitioner’s claim is unsupported and fails to establish
prejudice under Strickland.
e. Failure to Assert a Competent Defense
Petitioner argues that defense counsel erroneously
pursued an insanity defense even after petitioner was
denied a fitness hearing. Petitioner states that
counsel should have withdrawn from representation
or raised a competent defense. Generally, counsel’s
decision to argue one theory of defense to the exclusion
of another is considered trial strategy. People v.
Martin, 236 Ill. App. 3d 112, 123 (1st Dist. 1992)
(citing People v. Mikell, 217 Ill. App. 3d 814, 821

92a
(1991). Challenging defense trial strategy will not
support an ineffectiveness claim unless that strategy
is unsound. Martin, 236 Ill. App. 3d at 123 (citing
People v. Barrow, 133 Ill. 2d 226, 248 (1989)).
Denial of the fitness hearing does not preclude
counsel from continuing to raise an insanity defense.
Petitioner fails to show that counsel’s actions were
unreasonable given the circumstances or that he was
unduly prejudiced by counsel’s tactical decisions.
f. Failure to Object to DNA Stipulation
Petitioner argues that counsel failed to object to a
stipulation introducing inculpatory DNA evidence.
Counsel may enter into a stipulation without a
defendant’s knowing consent or court admonishment
so long as the stipulation is part of a reasonable trial
strategy and the defendant does not object. People v.
Clendenin, 238 Ill. 2d 302, 316 (2010) (citing People v.
Campbell, 208 Ill. 2d 203 (2003); People v. Phillips, 217
Ill. 2d 270 (2005); People v. Rowell, 229 Ill. 2d 82
(2008)). Despite petitioner’s contention that the
stipulation precluded him from challenging the crime
lab examiner, petitioner did not challenge the
stipulation during trial. Additionally, nothing in the
record suggests that counsel was unreasonable for
stipulating to this testimony.
g. Cumulative Error
Petitioner alleges that the cumulative effect of
counsel’s errors resulted in a denial of due process.
Illinois courts recognize that cumulative error can
deprive defendants of a fair trial; however, “there must
first be a showing of individual error.” People v.
Garmon, 394 Ill. App. 3d 977, 991 (Ill. App. Ct. 1st
2009). Petitioner has not shown that trial counsel’s

93a
tactical decisions were unreasonable or that the
outcome of the proceeding would have been different if
counsel had proceeded as petitioner suggests.
Petitioner has not shown any individual errors to
support his cumulative error claim.
III. Trial Court Error
Petitioner alleges that the trial court failed to
ensure that petitioner made a knowing and intelligent
waiver of his right to a jury trial. Petitioner states
that the court only alluded to a purported colloquy
held on a previous occasion and that there is no
evidence that petitioner understood the difference
between a bench and a jury trial. Petitioner alleges
that he only wanted to placate defense counsel and
that the trial court should have made further inquiries
into whether petitioner understood the types of
proceedings and was not merely appeasing the court
or counsel.
Again, a defendant validly waives his right to a jury
trial only if the waiver is made “(1) understandingly,
and (2) in open court.” People v. Elders, 349 Ill. App.
3d 573, 578 (1st Dist. 2004) (quoting People v. Scott,
186 Ill. 2d 283, 285 (1999). For a valid waiver,
defendant must be present and not object to counsel’s
statement that defendant wishes to proceed by way of
a bench trial. Elders, 349 Ill. App. 3d at 578 (citing
People v. Eyen, 291 Ill. App. 3d 38, 41 (1997)).
Whether a jury waiver is valid “depends on the facts
and circumstances of each particular case.” In re
R.A.B., 197 Ill. 2d 358, 364, (2001). A trial court need
not give any specific admonition or advice for a
defendant to make an effective jury waiver. People v.
Bannister, 232 Ill. 2d 52, 66 (2008).

94a
In this case, nothing in the record suggests that the
trial court erred by accepting petitioner’s jury waiver.
Petitioner’s claim is without merit.
IV. Ineffective
Counsel

Assistance

of

Appellate

Criminal petitioners are guaranteed effective
assistance of counsel on appeal. Evitts v. Lucey, 469
U.S. 387, 396–97 (1985). In assessing a petitioner’s
claims of ineffective assistance of appellate counsel,
the court again follows the two-pronged Strickland
test. 466 U.S. 668 (1984). Where a petitioner claims
that appellate counsel was deficient for failing to raise
the issue of trial counsel’s effectiveness, the focus must
necessarily be on trial counsel’s performance. People
v. Johnson, 183 Ill. 2d 176, 187 (1998). However, a
defendant suffers no prejudice from appellate
counsel’s failure to raise an issue on direct appeal
where the underlying issue is not meritorious. People
v. Enis, 194 Ill. 2d 361, 388–89 (2000) (citing People v.
Childress, 191 Ill. 2d 168, 175 (2000)).
In this case, petitioner alleges that appellate
counsel failed to raise jury waiver admonishment
claim on direct appeal. Because the underlying claim
is without merit, it was reasonable for appellate
counsel to omit the claim from appellate proceedings.
CONCLUSION
The court finds that petitioner’s claims are frivolous
and patently without merit. Accordingly, the petition
for post-conviction relief is hereby dismissed.
Petitioner’s request for leave to proceed in forma
pauperis and for appointment of counsel is likewise
denied.

95a
ENTERED:
Hon. Joseph M. Claps
Circuit Court of Cook County
Criminal Division
DATED:

96a

APPENDIX F
IN THE CIRCUIT COURT
OF COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT - CRIMINAL DIVISION
PEOPLE OF THE STATE
OF ILLINOIS,
Respondent,
-vsGREGORY WILLIAMS,
Petitioner.

)
)
)
)
)
)
)
)
)
)
)

Circuit Ct. No. 06 CR 2627
Honorable Joseph M. Claps,
Judge Presiding

CERTIFICATE/PROOF OF SERVICE
You are hereby notified that on Feb 18, 2011,
I placed the attached petition for post-conviction relief
and motion to proceed in forma pauperis in the
institutional mail system at Stateville Correctional
Center to be mailed to the Clerk of the Circuit Court
of Cook County.
TO:
Clerk of the Circuit
Court of Cook County
2650 South California
Chicago, Illinois 60608

Cook County
State’s Attorney
300 Daley Center
Chicago, Illinois 60602

97a
/s/ Gregory Williams
GREGORY WILLIAMS
Reg. No. K52712
Stateville Corr. Ctr.
P.O. Box 112
Joliet, Illinois 60434
I, Gregory Williams, affiant, do hereby declare and
affirm pursuant to 735 ILCS 5/109, under penalty of
perjury, that everything contained herein is true and
accurate to the best of my knowledge and belief.
Finally, I do declare and affirm that the matter at
hand is not taken either frivolously or maliciously and
that I believe the forgoing matter is take in good faith.
Signed on this 18 day of Feb, 2011.
/s/ Gregory Williams
AFFIANT
State of Illinois County of
OFFICIAL SEAL
Will
PHYLLIS BAKER
Signed before me on this
Notary Public - State
18th day of February, 2011
of Illinois
by_______
May Commission Expires
Notary Public /s/________
Jan 19, 2015

98a
IN THE CIRCUIT COURT
OF COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT - CRIMINAL
DIVISION
)
PEOPLE OF THE
STATE OF ILLINOIS, )
)
)
Respondent,
)
)
-vs)
)
GREGORY WILLIAMS,
)
)
Petitioner.
)

Circuit Ct. No. 06 CR
2627
Honorable Joseph M.
Claps,
Judge Presiding

MOTION TO PROCEED IN FORMA PAUPERIS
AND TO APPOINT COUNSEL
NOW COMES the petitioner, Gregory Williams,
pro se, and respectfully moves this Honorable Court
for leave to file the attached Petition for PostConviction Relief in forma pauperis and to have an
attorney appointed to represent him in this
proceeding, and in support thereof states as follows:
1.

That he is presently incarcerated in
Stateville Correctional Center.

2.

That he is without any income or assets with
which to pay for the cost of this litigation or
to procure counsel.

WHEREFORE, Petitioner prays that he be granted
leave to file and to proceed in forma pauperis in the

99a
above-captioned Petition for Post-Conviction Relief
and to have counsel appointed to represent him in this
proceeding.
/s/ Gregory Williams
PETITIONER
I, GREGORY WILLIAMS, affiant, do hereby declare
and affirm pursuant to 735 ILC5 5/109, under penalty
of perjury, that everything contained herein is true
and accurate to the best of my knowledge and belief. I
further declare and affirm that the contents of the
foregoing documents are known to me and are
accurate to the best of my knowledge and belief.
Finally, I do declare and affirm that the matter at
hand is not taken either frivolously or maliciously and
that I believe the foregoing matter is taken in good
faith.
Signed on this 18 day of Feb, 2011.
/s/ Gregory Williams
AFFIANT

100a
IN THE CIRCUIT COURT
OF COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT - CRIMINAL
DIVISION
PEOPLE OF THE STATE )
)
OF ILLINOIS,
)
)
Respondent,
)
)
-vs)
)
GREGORY WILLIAMS,
)
)
Petitioner.
)

Circuit Ct. No. 06 CR
2627
Honorable Joseph M.
Claps,
Judge Presiding

Petition For Post-Conviction Relief
NOW COMES THE PETITIONER, Gregory
Williams, Pro se, pursuant to 725 ILCS 5/122-1 et seq,
and prays that this Honorable Court grant the
petitioner a hearing and set aside the conviction of the
petitioner and in support thereof state as follow:
1. That the petitioner was tried in case No. 06 CR
2627 before a judge on August 25, 2008.
2. On January 12, 2009 final judgement was
rendered and petitioner was convicted of the offenses
of:
Kidnaping,
Aggravated-Kidnaping,
and
Aggravated Criminal Sexual Assault.
3. That the petitioner was sentenced on February
03, 2009 to three (3) consecutive 22 year terms, and
five (5) concurrent 22 year terms and is currently
incarcerated at Stateville Correctional Center.

101a
4. That a Notice Of Appeal was timely filed in the
first District Appellate Court of Illinois No. 1-09-1671,
on June 17, 2009 and was affirmed on February 4,
2011. A Petition for leave to Appeal was denied on N/A
5. That the petitioner contents he was
substantially denied his right to due process and
effective assistance of trial and appellate counsel
guaranteed by sixed and fourteenth amendment of the
United States Constitution, and Article one, section
two and eight of the Illinois State Constitution,
wherein:
TRIAL COUNSEL, MARGARET DOMIN,
FAILED TO PRESENT EVIDENCE OF
PETITIONER’S MENTAL ILLNESS.
Throughout the duration of the criminal
proceedings, Petitioner’s mental health was a critical
issue in the case at bar. The Court granted numerous
continuances while waiting for defense counsel to
tender up evidence as to Petitioner’s mental condition.
During trial, Dr. Carl Wahlstrom was asked what
documents did he review prior to his examination of
Petitioner? (RP PP 11–12) Dr. Wahlstrom proceeded
to cite a list of documents, including reports from
Chicago Reed Mental Health Center and prior mental
health records from seven (7) different [IDOC]
correctional centers. Additionally, Dr. Wahlstrom
averred that while conducting an exam of Petitioner
on June 25, 2007, he learned that Petitioner was
presently taking three (3) different medications for
psychotic symptoms, depression, and anxiety.
On March 14, 2007, defense counsel moved the
Court to conduct a fitness hearing for Petitioner. (RP
O 3) Apparently, following an unfavorable report by

102a
the first doctor, defense counsel moved the Court for a
second opinion. Defense counsel’s access to the same
foregoing information as the doctors, afforded notice of
potentially fruitful areas of investigation; however, at
no time prior to either of the Court appointed doctors’
opinions, did defense counsel conduct any independent
investigation in an attempt to offer direct or
corroborating evidence to advance Petitioner’s
position. Likewise, defense counsel never investigated
to discover the doctor(s) that wrote the prescriptions
and their medical findings, opinions and/or reasons for
said prescriptions.
In sum, defense counsel did little more than go
through the motions in in her perfunctory attempt to
procure a fitness hearing. Petitioner’s history of
mental illness dated back to 1986, with prior reports
of head trauma/brain injury, auditory hallucinations,
suicide attempts, and a recorded I.Q. of borderline
mental retardation. (RP PP 14–16) Moreover, there
were numerous facilities that diagnosed Petitioner as
a “schizophrenic paranoid type” prior to the instant
case. (RP PP 18) Defense counsel’s failure to
investigate and/or produce any additional evidence
after requesting a fitness hearing, resulted in an
inequitable deprivation of Petitioner’s right to due
process and effective assistance of counsel.
TRIAL COUNSEL, MARGARET DOMIN,
FAILED TO CONSULT WITH PETITIONER.
At the onset of defense counsel’s representation,
Petitioner conveyed to defense counsel that he was
confused and didn’t understand what was happening
in the criminal proceedings. Petitioner also conveyed
that the different people who said they were his

103a
lawyers, would never answer his questions or give an
explanation as to what was happening in the
courtroom. On numerous occasions, Petitioner asked
defense counsel to review and explain information
contained in the State’s discovery.
Likewise,
Petitioner repeatedly asked defense counsel to explain
what crimes Petitioner was charged with allegedly
committing. Defense counsel conveyed that Petitioner
was in jail for rape; but repeatedly promised to, “sit
down and explain everything” after Petitioner was
seen by the doctor(s).
Defense counsel was fully cognizant of Petitioner’s
history of mental illness, brain injury/head trauma,
and borderline mental retardation. As such, defense
counsel apparently believed it was necessary to move
the Court for a “fitness” hearing. However, despite
being apprised that Petitioner didn’t even procure an
eight grade education, and was currently taking
antipsychotic medications; defense counsel wouldn’t
answer Petitioner’s questions, or take reasonable
steps to ensure Petitioner possessed a basic knowledge
or understanding of the numerous crimes, counts and
actions that encompassed him in the instant
proceedings. Likewise, defense counsel neglected to
ever apprise and/or explain the alleged evidence
against Petitioner.
Defense counsel had a professional duty to keep
Petitioner reasonably informed about the status of his
criminal proceedings, and to promptly comply with
reasonable requests for information. Additionally, it
was also defense counsel’s responsibility to explain
matters to the extent reasonably necessary to permit
Petitioner to make informed decisions; however,
defense counsel never visited Petitioner during the

104a
instant proceedings, for consultation purposes.
Defense counsel’s flagrant disregard for her
professional duties not only impeded Petitioner’s
ability to make knowledgeable or intelligent decisions,
but effectively tainted, if not invalidated, any of
Petitioner’s constitutional right waivers or decisions in
the instant proceedings. Consequently, Petitioner was
deprived of his right to due process and effective
assistance of counsel.
TRIAL COUNSEL, MARGARET DOMIN,
FAILED TO ADVISE PETITIONER.
Subsequent to a “402” conference, defense counsel
never advised Petitioner as to the possible
consequences of rejecting the plea offer. Petitioner
knew little else other than he was in jail for rape, as
defense counsel repeatedly neglected to answer
Petitioner’s questions and afford him a basic
understanding. Likewise, Petitioner was oblivious to
the alleged presence of inculpatory evidence [e.g.,
Petitioner’s DNA, victim’s testimony, etc.]. Moreover,
defense counsel never apprised Petitioner that in the
instant case alone, there were 37 counts for which
Petitioner could receive multiple or consecutive
sentences.
Defense counsel had a professional duty to exercise
independent professional judgment and render candid
advice.
In light of Petitioner’s disability, and
considering that Petitioner’s mother was present at
nearly every pre-trial court date, defense counsel could
have advised the mother in addition to Petitioner if
there
were
concerns
regarding
Petitioner’s
comprehension. However, it is a far cry to contend
that had Petitioner been fully cognizant and

105a
appreciative of the potential detriment following a
finding of guilt, he would have knowingly rejected the
Court’s merciful offer.
Defense counsel was cognizant of all pertinent
factors necessary to competently advise Petitioner, yet
neglected to do so. Defense counsel’s failures become
more egregious in light of the purported insanity
defense as actus reus was not in question. Therefore,
after the Court denied the fitness hearing, Petitioner’s
ill-advised and unenlightened plea offer rejection,
effectively pushed him out of the frying pan and into
the fire. As such, defense counsel’s negligence severely
prejudiced Petitioner’s ability to make informed
decisions regarding critical aspects of the instant case,
and thus, depriving Petitioner of his right to due
process and effective assistance of counsel.
TRIAL COUNSEL, MARGARET DOMIN,
MISLED PETITIONER.
Defense counsel, while fully cognizant of the instant
case in its entirety, furnished Petitioner with
erroneous advice, which consequently misled him into
rejecting the Court’s plea offer. Subsequent to the
Court’s offer, Petitioner asked defense counsel how
many years would he have to serve. Defense counsel
asserted that since Petitioner was not on bond when
the instant case allegedly occurred, 85% of the largest
term [21 years] would have to be served. Then defense
counsel expressed that the Court’s offer was “too much
time” and that the State had no evidence. Defense
counsel conveyed that with a plea offer of that much
time it would be best to just go to trial. Defense
counsel then proceeded to demand trial while
asserting that Petitioner was guilty but mentally ill.

106a
Defense counsel’s questionable practices appeared
oxymoronic, unconscionable, and absent any strategic
foundation. While it’s axiomatic that “guilty, but
mentally ill” is not a defense, but rather an alternative
verdict premised on an insanity defense; it remains
unclear as to why defense counsel would attempt to
raise “insanity” after the Court denied a fitness
hearing and conducted a “402” conference. To further
exacerbate matters, not only did defense counsel
consciously raise a defense that she knew had
virtually no chance of advancing; but, defense counsel
advised Petitioner to waive a jury trial, and thus,
assert “insanity” to a trier of fact who had already
opined that Petitioner was not insane.
Defense counsel’s negligence appeared nothing
short of wanton, as she basically threw Petitioner
under the bus. During several court appearances,
defense counsel expressed intent to assert guilty but
mentally ill as Petitioner’s “pseudo” affirmative
defense. On the day Petitioner was scheduled to begin
trial, defense counsel averred that, “the defense is
guilty but mentally ill, but technically isn’t an
affirmative defense.” [sic] (RP KK 3) In light of the
denied fitness hearing and rejected “402” conference
offer, defense counsel’s pseudo insanity defense
essentially left Petitioner to engage in a “pseudo” trial.
Petitioner placed unwavering confidence in defense
counsel with hopes that counsel would apprise and
enlighten Petitioner, as well as render candid advice
regarding crucial areas of his case.
Moreover,
Petitioner’s heavy reliance and trust in defense
counsel’s advice is readily apparent from the record.
(RP KK 3–5) However, defense counsel abused
Petitioner’s trust and abandoned the Rules of

107a
Professional Conduct. As such, Petitioner was denied
his right to due process and effective assistance of
counsel.
TRIAL COUNSEL, MARGARET DOMIN,
AFFECTED AN INVALID JURY WAIVER.
Petitioner’s mental illness has been an issue since
defense counsel filed an appearance. Petitioner has a
documented history of mental illness that dates back
20 years before the alleged occurrence of the instant
case. Defense counsel alluded to raising a pseudo
insanity defense and moved the Court for a fitness
hearing. Moreover, defense counsel was cognizant
that Petitioner did not know or appreciate the gravity
of waiving a his right to a jury trial.
Defense counsel failed to advise Petitioner as to the
fundamental and/or strategic difference between a
bench and jury trial. Additionally, defense counsel
conveyed that Petitioner would not receive a fair trial
with a jury; and that Petitioner was “sure to lose”
because defense counsel hadn’t prepared for a jury
trial.
Moreover, defense counsel expressed to
Petitioner that a jury trial would take “too long”; and
since the instant case was dragging on for so long,
choosing a jury would only “piss off” the Judge even
more.
Ultimately, the choice to waive any constitutional
right resided solely with Petitioner; however, for the
waiver to be valid, it must be knowingly or
intelligently made. Upon review of the record, it
appears that Petitioner didn’t want a bench trial, but
waived a jury trial at the behest of defense counsel.
(RP KK 3–5) Defense counsel, unintentionally or
otherwise, purported her personal opinion to

108a
Petitioner as fact.
Moreover, defense counsel
essentially “bullied” Petitioner into a jury waiver by
virtually guaranteeing a guilty verdict following a jury
trial, because defense counsel was not prepared.
Defense counsel’s egregious assertions, her failure
to conduct any meaningful consultation with
Petitioner [or his family], and Petitioner’s mental
instability—when viewed in light of the circumstance
and total evidence—renders it highly unlikely that
Petitioner made a knowing or intelligent waiver of his
right to a jury trial.
Furthermore, it remains
undetermined as to why defense counsel coerced
Petitioner into declining the Court’s plea offer.
However, it’s inexplicable and a far cry from trial
strategy for defense counsel to advise a jury waiver
while pursuing what defense counsel referred to as a
“pseudo” affirmative defense of guilty but mentally ill
after first, the Court already denied Petitioner’s
request for a fitness hearing, and next, Petitioner
declined the Court’s “402” plea offer.
Defense
counsel’s negligence, and egregious actions impeded
Petitioner’s ability to make a knowing waiver of his
right to a jury trial. Consequently, Petitioner was
effectively denied his right to due process and effective
assistance of counsel.
TRIAL COUNSEL, MARGARET DOMIN,
FAILED TO INVESTIGATE OR INTERVIEW.
The trial testimony of Dr. Wahlstrom revealed that
Petitioner had at least 20 years of recorded mental
health problems. Moreover, there were numerous
examination conducted at several IDOC [Illinois
Department of Corrections] facilities. Defense counsel
was also cognizant that Petitioner received Social

109a
Security Income for his mental disabilities. At no time
did defense counsel investigate, or seek to interview
any doctors or experts [in connection with the IDOC,
Social Security Administration, etc.] who examined
and/or assessed Petitioner’s mental condition.
Defense counsel raised an affirmative “insanity”
defense, but did nothing more than point Petitioner in
the direction of two (2) doctors who rendered
conflicting opinions. Defense counsel asked for a
fitness hearing and made no attempts to procure an
additional
evidence
to
support
Petitioner’s
contentions.
Similarly, defense counsel never
investigated the DNA results, the method by which
said results were obtained, or even the occupational
credentials of the individual(s) who performed the
test(s). Defense counsel’s failures not only reflected
her perfunctory representation., but impeded
Petitioner’s ability to uncover and/or harvest fruitful
areas of investigation. As such, Petitioner was denied
his right to due process and effective assistance of
counsel.
TRIAL COUNSEL, MARGARET DOMIN,
FAILED TO ASSERT A COMPETENT
DEFENSE.
Upon the onset of representation, defence counsel
pursued an affirmative defense of insanity.
Nonetheless, in an oxymoronic manner reflected by
the record on several occasions, defense counsel
asserted that Petitioner was guilty but mentally ill,
and euphemistically labeled this as a “pseudo”
affirmative defense. After conflicting expert opinions
by two (2) doctors resulted in a denial of Petitioner’s
fitness hearing, defense counsel entered into plea

110a
negotiations which led to a “402” conference.
Petitioner was erroneously advised to deny the Court’s
offer because dedense counsel allegedly believed the
sentence was “too much time.”
Following a plethora of egregious advice, defense
counsel didn’t champion Petitioner’s right to be found
guilty beyond a reasonable doubt and raise an
alternative defense. In contrast, defense counsel
didn’t make an attempt to withdraw representation
because Petitioner wanted to advance a defense that
had virtually no chance to succeed. Instead, defense
counsel doggedly pursued the same insanity defense
after the Court already denied Petitioner’s fitness
hearing. A perfect defense isn’t guaranteed, but
Petitioner had a right to a competent defense; and if
defense counsel couldn’t provide such, then she could
have obtained assistance or withdrew from
representation. Defense counsel’s failures deprived
Petitioner of due process and effective assistance of
counsel.
TRIAL COUNSEL, MARGARET DOMIN,
FAILED TO PROCURE AN EXPERT.
As a strategic decision pursuant to the insanity
plea, defense counsel requested a psychological
evaluation of Petitioner. Following an unfavorable
opinion by Dr. Roni Seltzberg, expressing possible
malingering by Petitioner, defense counsel requested
a second opinion. The second opinion, rendered by Dr.
Carl Wahlstrom, confirmed Petitioner’s mental illness
and was at odds with Dr. Seltzberg. Moreover, Dr.
Wahlstrom’s opinion was consistent with previous
opinions from a 20 year history of numerous

111a
examinations documented in Petitioner’s mental
health records.
Defense counsel never sought a third opinion in
light of the two (2) conflicting expert opinions.
Interestingly, defense counsel also never bothered to
interview or subpoena any of the experts who rendered
previous opinions on Petitioner’s mental illness.
However, in the light of conflicting evidence, defense
counsel madw no attempt to produce any probative or
corroborating evidence to advance Petitioner’s
contention. Defense counsel’s negligence deprived
Petitioner of his right to due process and effective
assistance of counsel.
TRIAL COUNSEL, MARGARET DOMIN,
FAILED TO OBJECT TO DNA STIPULATION.
Immediately following the alleged victim’s
testimony, the State sought to introduce alleged
inculpatory DNA evidence via stipulation. Petitioner
wasn’t afforded an opportunity to challenge the
reliability of the alleged results. Likewise, defense
counsel never sought to have independent testing of
the alleged evidence. Furthermore, defense counsel
failed to object to said evidence that was purportedly
examined by no one in particular; just the “Illinois
State Police.” (RP LL 22)
The State’s boilerplate stipulation neither alluded
to a specific individual who allegedly performed the
examination, nor the type of testing that was
performed. As such, not only was Petitioner deprived
of his right to confrontation; but premised on the
State’s stipulation, Petitioner couldn’t possibly know
“who” to subpoena. estigate, or subpoena.

112a
Petitioner had no way to interview the John/Jane
Doe examiner or investigate his/her work related
background [e.g., qualifications, experience, prior
complaints, etc.]. In addition to violating “412”
discovery rules, defense counsel’s negligence failed to
preserve the alleged DNA evidence issue for later
review. Consequently, Petitioner was deprived of his
right to due process and effective assistance of counsel.
THE CUMULATIVE EFFECT OF TRIAL
COUNSEL, MARGARET DOMIN’S ERRORS
IRREPARABLY PREJUDICED PETITIONER.
From the time defense counsel filed an appearance,
she has furnished perfunctory representation for
Petitioner. Defense counsel never communicated with
outside of the courtroom, nor did she ever scheduled
time to explain matters or answer questions regarding
the instant case, in an attempt to afford Petitioner a
reasonable understanding. Defense counsel conducted
little, in any, pre-trial investigation. Moreover, after
requesting a fitness hearing, defense counsel didn’t
interview or subpoena one expert that previously
opined that Petitioner mentally ill.
Subsequent to the denial of the fitness hearing,
defense counsel sought a “402” conference, However,
for some inexplicable reason, advised Petitioner to
decline the Court’s offer of 21 and 20 years
consecutive, while fully cognizant that in the instant
case alone, the Court could impose consecutive
sentences with an aggregate total of 120 years.
Defense counsel then egregiously advised Petitioner to
waive his right to a jury trial without so much as an
alternative defense strategy. This unconscionable
decision by defense counsel left Petitioner to stand

113a
trial while asserting the same insanity defense to a
trier of fact that already denied Petitioner’s requested
competency hearing, as well as, engaged in a “402”
conference. During trial, defense counsel allowed the
State’s boilerplate stipulation regarding DNA
evidence to go unobjected.
It is a far cry to pass off the cumulation of defense
counsel’s errors as trial strategy. Moreover, if any of
Petitioner’s decisions were at his own volition and
knowingly made against counsel’s candid advice, then
defense counsel could have motioned the Court to
withdraw. Instead, after defense counsel discovered
that an insanity defense had virtually no chance to
succeed, she proceeded to throw an anchor to the
drowning Petitioner. Defense counsel’s incompetency
and cumulative errors impeded Petitioner’s right and
ability to make informed and knowledgeable decisions
at critical times in the instant proceedings.
Consequently, Petitioner was substantially denied his
right to due process and effective assistance of counsel.
TRIAL COURT FAILED TO PROPERLY
ADMONISH PETITIONER.
In the light of Petitioner’s insanity defense,
extensive history of mental illness, and documented
stabilization on psychotropic medication throughout
the duration of the proceedings; the Trial Court failed
to ensure that Petitioner made a full knowing and
intelligent waiver of his right to a jury trial. In fact,
the Court only alluded to a purported colloquy held an
a previous occasion. (RP KK 6–7) However, there is no
evidence that Petitioner ever knew the difference
between a bench and jury trial. Moreover, Petitioner
appeared to only want to placate defense counsel. (RP

114a
KK 3–4) Given the unique set of circumstances, the
Court should have made certain that Petitioner
understood the fundamental difference between the
two (2) types of trial proceedings; but more
importantly, that Petitioner wasn’t just answering
“yes” to appease the Court. Consequently, Petitioner
was denied his right to due process.
APPELLATE COUNSEL, EMILY WOOD,
FAILED TO RAISE ADMONITION ISSUE.
The Trial Court’s failure to properly admonish
Petitioner is readily apparent from the trial record.
Appellate counsel failed to raise the admonition in
direct appeal or and/or preserve it for later review.
Consequently, Petitioner was denied his right to due
process.
6. That because of the foregoing substantial
deprivation of Petitioner’s UNITED STATES and
ILLINOIS Constitutional rights to due process,
effective trial counsel, and effective appellate counsel,
the judgment and sentence of conviction should be
vacated and set aside and a new trial should be
ordered.
WHEREFORE, the petitioner prays that this
Honorable Court set aside the finding of guilt and
sentence and grant the petitioner a new trial.
/s/ Gregory Williams
Gregory Williams
AFFIDAVIT
I, Gregory Williams, being first duly sworn, state
that I have read the foregoing petition and that the
contents contained therein are true and accurate to
the best of my knowledge, information and belief.

115a
/s/ Gregory Williams
GREGORY WILLIAMS
REG. NO. K52712
STATEVILL CORR. CTR.
P.O. BOX 112
JOLIET, ILLINOIS 60434
I, Gregory Williams, affiant, do hereby declare and
affirm pursuant to 735 ILCS 5/109, under penalty of
perjury, that everything contained herein is true and
accurate to the best of my knowledge and belief. I
further declare that the contents of the foregoing
documents are known to me and are accurate to the
best of my knowledge and belief. Finally, I do declare
and affirm that the matter at hand is not taken either
frivolously or maliciously and that I believe the
foregoing matter is taken in good faith.
Signed on this 18 day of Feb, 2011.
/s/ Gregory Williams
Affiant

116a

APPENDIX G

CONSTITUTION OF THE UNITED STATES
Amendment VI
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be
confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his
defence.

117a

APPENDIX H

28 U.S.C. § 2254
State custody; remedies in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit
judge, or a district court shall entertain an application
for a writ of habeas corpus in behalf of a person in
custody pursuant to the judgment of a State court only
on the ground that he is in custody in violation of the
Constitution or laws or treaties of the United States.
(b)(1) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the judgment
of a State court shall not be granted unless it appears
that—
(A) the applicant has exhausted the remedies
available in the courts of the State; or
(B)(i) there is an absence of available State
corrective process; or
(ii) circumstances exist that render such process
ineffective to protect the rights of the applicant.
(2) An application for a writ of habeas corpus may be
denied on the merits, notwithstanding the failure of
the applicant to exhaust the remedies available in the
courts of the State.
(3) A State shall not be deemed to have waived the
exhaustion requirement or be estopped from reliance
upon the requirement unless the State, through
counsel, expressly waives the requirement.

118a
(c) An applicant shall not be deemed to have
exhausted the remedies available in the courts of the
State, within the meaning of this section, if he has the
right under the law of the State to raise, by any
available procedure, the question presented.
(d) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the judgment
of a State court shall not be granted with respect to
any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the
claim—
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of
the evidence presented in the State court
proceeding.
(e)(1) In a proceeding instituted by an application for
a writ of habeas corpus by a person in custody
pursuant to the judgment of a State court, a
determination of a factual issue made by a State court
shall be presumed to be correct. The applicant shall
have the burden of rebutting the presumption of
correctness by clear and convincing evidence.
(2) If the applicant has failed to develop the factual
basis of a claim in State court proceedings, the court
shall not hold an evidentiary hearing on the claim
unless the applicant shows that—
(A) the claim relies on—

119a
(i) a new rule of constitutional law, made
retroactive to cases on collateral review by the
Supreme
Court,
that
was
previously
unavailable; or
(ii) a factual predicate that could not have
been previously discovered through the exercise
of due diligence; and
(B) the facts underlying the claim would be
sufficient to establish by clear and convincing
evidence that but for constitutional error, no
reasonable factfinder would have found the
applicant guilty of the underlying offense.
(f) If the applicant challenges the sufficiency of the
evidence adduced in such State court proceeding to
support the State court’s determination of a factual
issue made therein, the applicant, if able, shall
produce that part of the record pertinent to a
determination of the sufficiency of the evidence to
support such determination. If the applicant, because
of indigency or other reason is unable to produce such
part of the record, then the State shall produce such
part of the record and the Federal court shall direct
the State to do so by order directed to an appropriate
State official. If the State cannot provide such
pertinent part of the record, then the court shall
determine under the existing facts and circumstances
what weight shall be given to the State court’s factual
determination.
(g) A copy of the official records of the State court,
duly certified by the clerk of such court to be a true and
correct copy of a finding, judicial opinion, or other
reliable written indicia showing such a factual

120a
determination by the State court shall be admissible
in the Federal court proceeding.
(h) Except as provided in section 408 of the
Controlled Substances Act, in all proceedings brought
under this section, and any subsequent proceedings on
review, the court may appoint counsel for an applicant
who is or becomes financially unable to afford counsel,
except as provided by a rule promulgated by the
Supreme Court pursuant to statutory authority.
Appointment of counsel under this section shall be
governed by section 3006A of title 18.
(i) The ineffectiveness or incompetence of counsel
during Federal or State collateral post-conviction
proceedings shall not be a ground for relief in a
proceeding arising under section 2254.

